APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the State of California
Court of Appeal, Fourth Appellate
District, Division One, No. D073992
(May 2, 2019). . . . . . . . . . . . . . . . . App. 1
Appendix B Order
Certifying
Opinion for
Publication in the State of California
Court of Appeal, Fourth Appellate
District, Division One, No. D073992
(May 22, 2019). . . . . . . . . . . . . . . App. 20
Appendix C O r d e r
Declaring Recorded
Instruments Void in the Superior
Court of the State of California for the
County of San Diego, Central Division,
No. SCD266414
(March 5, 2018) . . . . . . . . . . . . . . App. 23
Appendix D Order in the Superior Court of the
State of California for the County of
San Diego, Central Division, No.
SCD266414
(February 23, 2018) . . . . . . . . . . App. 29
Appendix E Order Denying Petition for Review in
the Supreme Court of California, No.
S256533
(August 28, 2019) . . . . . . . . . . . . App. 35
Appendix F Cal. Penal Code § 115 . . . . . . . . . App. 36
Appendix G Deed of Trust (with attached Exhibits)
(March 28, 2014) . . . . . . . . . . . . . App. 42

App. 1

APPENDIX A
NOT TO BE PUBLISHED IN
OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a),
prohibits courts and parties from citing or
relying on opinions not certified for
publication or ordered published, except as
specified by rule 8.1115(b). This opinion has not
been certified for publication or ordered
published for purposes of rule 8.1115.
COURT OF APPEAL,
FOURTH APPELLATE DISTRICT
DIVISION ONE
STATE OF CALIFORNIA
D073992
(Super. Ct. No. SCD266414)
[Filed May 2, 2019]
_____________________________
THE PEOPLE,
)
)
Plaintiff and Respondent,
)
)
v.
)
)
YOLANDA ASTORGA-LIDER, )
)
Defendant;
)

App. 2
SUNIL DEO,

)
)
Real Party in Interest
)
and Appellant.
)
_____________________________ )
APPEAL from an order of the Superior Court of San
Diego County, Howard H. Shore, Judge. Affirmed.
Garrett & Tully, Ryan C. Squire and Jennifer R.
Slater, for Real Party in Interest and Appellant.
Summer Stephan, District Attorney, Mark A.
Amador, and Valerie Tanney, Deputy District
Attorneys, for the Plaintiff and Respondent.
Yolanda Astorga-Lider pled guilty to six felony
counts, including two counts of violating Penal Code1
section 115, subdivision (a). One of those counts, grand
theft (§ 487; count 6), involved Astorga-Lider
encumbering certain real property, purchased by
Nohemi and Jose Lorenzana,2 with a fraudulent deed
of trust. The subject deed of trust listed Sunil Deo as
the lender.
After Astorga-Lider’s guilty plea, the People moved,
under section 115, subdivision (e), for an order
declaring certain record instruments void, including
the deed of trust listing Deo as the lender (Deo Deed of

1

Statutory references are to the Penal Code unless otherwise
specified.

2

We refer to Nohemi and Jose by their respective first names to
avoid confusion. Additionally, we refer to Nohemi and Jose
together as the Lorenzanas.

App. 3
Trust). After multiple rounds of briefing as well as
considering evidence and information submitted in
support of and opposition to the People’s motion, the
superior court granted the motion. In doing so, the
court found the Deo Deed of Trust void.
Deo appeals the order declaring the Deo Deed of
Trust void, contending the People’s motion was
procedurally improper; the Deo Deed of Trust is not a
false or forged document under section 115; at most,
the Deo Deed of Trust is voidable, not void; civil court,
not criminal court, is the appropriate forum for
adjudication of the validity of the Deo Deed of Trust;
Deo’s due process rights have been violated; and the
order voiding the Deo Deed of Trust constitutes an
unlawful taking. We conclude Deo’s arguments are
without merit. Therefore, we affirm.
FACTUAL AND PROCEDURAL BACKGROUND
Astorga-Lider’s Scheme
In December 2013, Nicolas and Elizabeth Corral
owned their home, free and clear of any liens, located
at 1837 Via Encantadoras, San Ysidro. They also
owned apartments located at 3737 Sunset Lane, San
Ysidro (Sunset Lane Apartments), together with
Nicolas’s brother. The Corrals and their daughter,
Nohemi, knew Astorga-Lider since she was a child.
Astorga-Lider claimed to be knowledgeable about the
real estate industry.
The Lorenzanas could not afford to buy a home;
thus, they were living with Nohemi’s parents until they
could save money for a down-payment and improve
their credit. Astorga-Lider suggested a plan to the

App. 4
Lorenzanas and the Corrals, which would allow the
Lorenzanas to purchase a home. The Corrals could
obtain a $350,000 real estate loan, borrowed against
the Sunset Lane Apartments and give the loan
proceeds to the Lorenzanas. In turn, the Lorenzanas
could use the proceeds to buy a home while making
payments on the $350,000 loan. The Corrals and
Lorenzanas agreed to the plan.
The Corrals therefore initiated a $350,000 loan with
Bank of the Internet. The loan proceeds were
deposited into the Corrals’ bank account. Soon after
the proceeds were deposited, the Corrals transferred
the money to the Lorenzanas’ account. The Lorenzanas
intended to use the money to pay cash for a home
located at 3363 Wittman Way, San Ysidro (Wittman
Property). Per their agreement with the Corrals, the
Lorenzanas made the payments on the Corrals’ loan
with Bank of the Internet.
The Lorenzanas finalized what they believed to be
an all-cash purchase of the Wittman Property. As
such, they wired $360,000 in purchase money to what
they believed to be the appropriate account to make the
purchase. To this end, Astorga-Lider accompanied the
Lorenzanas to the bank and provided the transfer
information to the bank.
Unbeknownst to the
Lorenzanas, the account number Astorga-Lider
provided the bank was for an account that she
controlled and used to funnel stolen funds from
multiple fraudulent loans.
While the Lorenzanas believed they were
purchasing the Wittman Property through the wire
transfer, Astorga-Lider took steps to continue her illicit

App. 5
scheme. She contacted the escrow company associated
with the closing of the Wittman Property, and without
the Lorenzanas’ knowledge, she changed the
transaction from a cash purchase transaction to a loan
purchase transaction. Astorga-Lider then applied for
a hard-money $275,000 loan in the Lorenzanas’ names
with Deo, again without the Lorenzanas’ knowledge
and consent. To secure the loan from Deo, she used
Michael Leiby, a mortgage broker that she had utilized
for other fraudulent loans. The Lorenzanas signed
several documents associated with the loan from Deo,
including the Deo Deed of Trust, but they were not
aware that they were signing loan documents for a new
loan.
Instead, they believed they were signing
documents to consummate their cash purchase of the
Wittman Property.
After causing the $360,000 to be wired to an account
she controlled, Astorga-Lider wired a small portion of
these funds to escrow as a down payment for the
Lorenzanas’ purchase of the Wittman Property. She
caused the rest of the purchase price to be paid by the
Deo loan. The Lorenzanas never received any notices
about the Deo loan. To conceal the loan from the
Lorenzanas, Astorga-Lider listed her own office address
as the Lorenzanas’ address so notices would be sent to
her and not the Lorenzanas.
Astorga-Lider’s deceit was not limited to the
Lorenzanas. After the Corrals had applied for the loan
with Bank of the Internet, Astorga-Lider used their
identities, without their knowledge, to apply for a
second loan in their names for $380,000 with hardmoney lender True Gem. Astorga-Lider had these loan

App. 6
proceeds deposited into an account she used for
funneling stolen funds. To hide her actions from the
Corrals, Astorga-Lider caused the final closing
statement to be sent to her. She also made payments
on the True Gem loan. The Corrals never received any
payment notices for this loan. The Corrals only
intended to take out a single loan for $350,000 with
Bank of the Internet. They did not intend to or
knowingly take out a second loan with True Gem for
$380,000.
The Corrals and Lorenzanas did not discover the
fraudulent True Gem and Deo loans until Victor Ray,
an investigator from the district attorney’s office,
uncovered Astorga-Lider’s scheme and found the loans
and corresponding deeds of trust . When Ray contacted
the Lorenzanas about the Deo loan and deed of trust,
the Lorenzanas knew nothing about any loan in their
name secured by the Wittman Property. They believed
they had used the proceeds of the Corrals’ loan with
Bank of the Internet to purchase the Wittman
Property.
Astorga-Lider’s Plea
The grand jury indicted Astorga-Lider on 42 felony
counts for taking over $3.2 million in her home loan
scheme. Seven of these counts were related to the
loans with True Gem and Deo. Fifteen of the counts
were for violations of section 115, subdivision (a), and
two of those counts involved Astorga-Lider causing the
deeds of trust relating to the True Gem and Deo loans
to be recorded.

App. 7
Ultimately, Astorga-Lider pled guilty to six felony
counts, including two counts of violating section 115,
subdivision (a).3 She stipulated to a prison sentence of
11 years. She also stipulated to the grand jury
transcript as the factual basis for her plea and entered
a Harvey4 wavier. Among other counts, Astorga-Lider
pled guilty to count 6, for grand theft (§ 487) for
encumbering the Wittman Property with the
fraudulent Deo Deed of Trust.
The People’s Motion to Void the Deo Deed of Trust
On November 8, 2017, almost two months after
Astorga-Lider pled guilty, the People moved for an
order declaring certain recorded instruments void
under section 115, subdivision (e). As part of that
motion, the People sought to void the Deo Deed of
Trust. The motion was supported by the grand jury
transcript, Astorga-Lider’s guilty plea, and AstorgaLider’s stipulation to the grand jury transcript as the
factual basis for her guilty plea.
On January 23, 2018, an attorney representing Deo
in a civil quiet title action, took the deposition of the
Lorenzanas. Seven days later, Deo filed an opposition
to the People’s motion. In support of the opposition,

3

Section 115, subdivision (a) provides: “Every person who
knowingly procures or offers any false or forged instrument to be
filed, registered, or recorded in any public office within this state,
which instrument, if genuine, might be filed, registered, or
recorded under any law of this state or of the United States, is
guilty of a felony.”

4

People v. Harvey (1979) 25 Cal.3d 754.

App. 8
Deo attached excerpts of the deposition transcripts of
the Lorenzanas as well as loan documentation.
The People filed a reply brief in which they asked
the superior court to take judicial notice of, among
other things, Astorga-Lider’s guilty plea, the grand jury
transcripts as well as their accompanying exhibits, and
the search warrant returns.
On February 13, 2018, the superior court held a
hearing on the People’s motion. The court took the
matter under submission and gave the parties
additional time to submit supplemental briefs. Both
Deo and the People submitted further briefs.
The court subsequently granted the People’s motion,
declaring the Deo Deed of Trust void (in addition to
other recorded instruments). Deo timely appealed.
DISCUSSION
I
DEO’S PROCEDURAL CHALLENGE TO THE
PEOPLE’S MOTION
Deo contends the superior erred in granting the
People’s motion and declaring the Deo Deed of Trust
void because the motion was procedurally improper.
Specifically, Deo asserts the People did not serve him
with a copy of the written motion and a notice of
hearing by certified mail as required under section 115,
subdivision (f)(7). Further, Deo insists he was not
served with a notice of hearing, even by regular mail,
and as such, he did not receive a notice of hearing

App. 9
listing the street address and the legal description of
the Wittman Property.
The People concede that they did not serve their
motion by certified mail but emphasize that Deo does
not claim he was unaware of the motion or that the
People were asking the court to declare the Deo Deed
of Trust void. They also argue that they included the
Wittman Property address in their moving papers
along with the recordation number of the Deo Deed of
Trust, which contained a legal description of the
property. In other words, the People argue that Deo
had notice of their motion and was not prejudiced by
any procedural deficiencies.
We agree with the People. The record is clear that
Deo had actual notice of the People’s motion and that
the motion was aimed, in part, at voiding the Deo Deed
of Trust. Indeed, Deo extensively litigated the issue,
filing an opposition and evidence in support of that
opposition, challenging evidence submitted by the
People, appearing at a hearing on the motion, and
submitting a supplemental brief. Deo does not claim
any prejudice based on the People’s failure to serve the
motion by certified mail. He does not point to any
argument he was unable to make. Accordingly, it
would be a waste of judicial economy and resources to
reverse the superior court’s order on this highly
technical ground, only to have the parties make the
same arguments below. Therefore, we determine Deo’s
claim of procedural improprieties is without merit.

App. 10
II
THE DETERMINATION THAT THE DEO DEED
OF TRUST IS VOID
The People moved under section 115, subdivision
(e)(1) for an order declaring the Deo Deed of Trust void.
That subdivision provides:
“After a person is convicted of a violation
of this section, or a plea is entered
whereby a charge alleging a violation of
this section is dismissed and waiver is
obtained pursuant to People v. Harvey
(1979) 25 Cal.3d 754, upon written motion
of the prosecuting agency, the court, after
a hearing described in subdivision (f),
shall issue a written order that the false
or forged instrument be adjudged void ab
initio if the court determines that an
order is appropriate under applicable law.
The order shall state whether the
instrument is false or forged, or both false
and forged, and describe the nature of the
falsity or forgery. A copy of the
instrument shall be attached to the order
at the time it is issued by the court and a
certified copy of the order shall be filed,
registered, or recorded at the appropriate
public office by the prosecuting agency.”
(§ 115, subd. (e)(1).)
Here, Astorga-Lider pled guilty to two counts that
she violated section 115, subdivision (a) and entered a
Harvey waiver. One of those counts (count 7) related to

App. 11
the Deo Deed of Trust. The superior court found that
the Lorenzanas were “crime victims as a matter of
law.” The court also found, after “[c]onsidering all the
available information presented by all parties,” the
Lorenzanas “believed the documents they signed to be
substantially different from their true nature.” Thus,
relying on Buck v. Superior Court of Orange County
(1965) 232 Cal.App.2d 153 (Buck), the court found the
Deo Deed of Trust to be a forgery as a matter of law,
and thus, void ab initio.
Deo maintains the court erred in concluding the Deo
Deed of Trust was forged because the undisputed
evidence is that the Lorenzanas signed the various
documents related to the Deo loan, including the Deo
Deed of Trust. In other words, Deo claims the
Lorenzanas’ respective signatures on the deed of trust
are authentic; thus, the deed of trust cannot be
considered a forgery. Deo’s argument fails under Buck,
supra, 232 Cal.App.2d 153.
In Buck, the victims were tricked into signing a
blank deed of trust by an aluminum siding salesman.
When the salesman presented a purchase contract for
signature, he included among the papers a blank deed
of trust, which the victims signed. The missing
information was later supplied to the deed of trust.
(Buck, supra, 232 Cal.App.2d at pp. 156-157.) The
issue on appeal was whether the salesman committed
a forgery when he tricked the victims into signing the
blank deed of trust. This court concluded he had,
reasoning: “Where a person who has no intention of
selling or encumbering his property is induced by some
trick or device to sign a paper having such effect,

App. 12
believing that paper to be a substantially different
instrument, the paper so signed is just as much a
forgery as it would have been had the signature been
forged.” (Id. at p. 162.)
We agree with the superior court that Buck is
instructive here. Like the victims in Buck, the
Lorenzanas believed the Deo Deed of Trust they were
signing was substantially different from what it
actually was. Moreover, the Lorenzanas had no
intention of encumbering the Wittman Property with
the Deo loan or Deo Deed of Trust. To the contrary,
they believed they were purchasing the Wittman
Property with cash from the proceeds of the Corrals’
loan with Bank of the Internet. The superior court
found that they were not aware that they were
borrowing additional money to be secured by the
Wittman Property. Thus, the Deo Deed of Trust was a
forgery. (See Buck, supra, 232 Cal.App.2d at p. 162;
accord People v. Parker (1967) 255 Cal.App.2d 664, 672;
People v. Johnson (1966) 247 Cal.App.2d 331, 337;
People v. Bresin (1966) 245 Cal.App.2d 232, 238-240;
People v. Carson (1966) 240 Cal.App.2d 477, 480.)
Nevertheless, relying on People v. Denham (2013)
218 Cal.App.4th 800 (Denham), Deo contends the Deo
Deed of Trust is not void because it does not involve the
transfer of an interest in the Wittman Property that
the Lorenzanas did not have the capacity to convey.
Alternatively stated, Deo asserts only wild deeds
(deeds wherein the grantor has no interest in the
property to convey) may be found void under section
115. We disagree and do not read Denham as creating

App. 13
any rule that would prohibit us from following Buck,
supra, 232 Cal.App.2d 153 on the record before us.5
In Denham, supra, 218 Cal.App.4th at pages 804 to
807, the defendant recorded quitclaim deeds and
homestead declarations on nine properties that he
believed were abandoned to acquire them via adverse
possession. The defendant placed tenants at the
properties. (Id. at pp. 805-806, 807.) The defendant
had no claim of title to or interest in the properties (id.
at p. 807) and was convicted of 20 counts of violating
section 115 (Denman, at p. 804).
Because the defendant did not have an interest to
transfer, he argued that the quitclaim deeds were not
false or fraudulent. (Denham, supra, 218 Cal.App.4th
at p. 807.) The appellate court disagreed, reasoning:
“While defendant is technically correct
that he attested in the quitclaim deed
that he was only transferring whatever
title or interest he possessed, it was clear
based on the evidence he had absolutely
no interest in the property. The
documents themselves were false in that
they transferred an interest that he did
not have to himself and then he recorded
the document, clouding the title of the

5

We note that nowhere in his opening or reply briefs does Deo
discuss or even address Buck, supra, 232 Cal.App.2d 153. This
omission is curious because the People relied on Buck below as did
the superior court. And the People cite to Buck in the respondent's
brief. Moreover, Buck is an opinion from our district that has not
been overturned. We thus follow that case.

App. 14
true property owners. Adopting
defendant’s reasoning would be in direct
contradiction with the purpose behind
section 115 to preserve and protect the
integrity of public records. Based on the
purpose of the statute and the fact that
section 115 has been broadly construed,
the quitclaim deeds could reasonably be
considered false documents by the jury.”
(Denham, at p. 809.)
Thus, Denham presents a specific factual situation
to which section 115 applies (i.e., the defendant
preparing and recording quit claim deeds involving
property to which he has no interest). There is nothing
in that case that limits the application of section 115
only to wild deeds. Further, Denham does not call into
question the validity of Buck, supra, 232 Cal.App.2d
153. In fact, the court in Denham did not discuss or
even cite to Buck. As such, Denham, supra, 218
Cal.App.4th 800 is not instructive here.
Additionally, we are not persuaded by Deo’s
argument that the Deo Deed of Trust is only voidable,
not void. Deo bases this contention on two claims:
(1) the Lorenzanas were negligent in signing the Deo
loan documents, including the Deo Deed of Trust; and
(2) Deo is a bona fide encumbrancer who engaged in no
untoward conduct. In support of his position, Deo
notes that, under California law, one who signs a
document is presumed to know its contents and cannot
escape from being bound by contending he or she did
not read the document. (See Stewart v. Preston
Pipeline Inc. (2005) 134 Cal.App.4th 1565, 1588-1589.)

App. 15
Similarly, Deo also argues that where a person is
aware of what he or she is executing but has been
induced to sign a deed of trust through fraudulent
misrepresentations, the deed is merely voidable not
void. (See Fallon v. Triangle Management Servs., Inc.
(1985) 169 Cal.App.3d 1103, 1106.) These arguments,
based on civil quiet title and contract law principles,
are not of the moment.
Deo’s argument that the Deo Deed of Trust is
voidable not void asks us to ignore the criminal
circumstances giving rise to section 115 here. Not
surprisingly, none of the cases on which Deo relies
address the situation where the person who executes a
deed of trust is a crime victim. Nor does Deo explain
why civil contract and quiet title law should trump
section 115. Indeed, the superior court observed that
the People’s motion under section 115, subdivision (e)
raised issues that were “different from that of a title
dispute arising in a purely civil context, where less
information is available to resolve factual disputes
without extensive discovery.” The court further
explained, “Here, for example, available information
includes substantial Grand Jury testimony leading to
the Indictment, as well as [Astorga-Lider’s] judicial
admissions underlying her guilty pleas.” Thus, the
superior court explicitly described why the People’s
motion was different than a civil title dispute or quiet
title action. Deo simply glosses over the superior
court’s distinction. More importantly, Deo has not
explained why the superior court’s reasoning is
incorrect. In short, he has not illustrated why section
115 does not apply to the instant action or why we
should follow general contract law and disregard the

App. 16
undisputed criminal activity leading the Lorenzanas to
sign the Deo Deed of Trust. As Deo has the burden to
show error below (see People v. Nero (2010) 181
Cal.App.4th 504, 510, fn. 11), these shortcomings are
fatal to his appeal.
Finally, we disagree with Deo’s assertion that the
superior court erred below by resolving the dispute
under section 115 because civil court is “a more
appropriate forum for adjudication of the validity of the
Deo Deed of Trust.” Deo represents that he filed a civil
quiet title action on October 10, 2017 to determine and
enforce his rights under the Deo Deed of Trust, but he
provides no authority that a criminal court addressing
a motion under section 115 must defer to an ongoing
civil quiet title action. In fact, section 115 deals with
the possibility of a pending civil suit:
“If, prior to the hearing on the motion,
any person or party files a quiet title
action that seeks a judicial determination
of the validity of the same false or forged
instrument that is the subject of the
motion, or the status of an interested
party as a bona fide purchaser of, or bona
fide holder of an encumbrance on, the
property affected by the false or forged
instrument, the court may consider that
as an additional but not dispositive factor
in making its determination under
subdivision (e); provided, however, that a
final judgment previously entered in that
quiet title action shall be followed to the

App. 17
extent otherwise required by law.” (§ 115,
subd. (f)(9)(B).)
Therefore, section 115 instructs the court to
consider the “additional” factor of a civil suit but makes
clear that such a factor is not “dispositive.” (§ 115,
subd. (f)(9)(B).) Accordingly, the superior court did not
err below by granting the People’s motion under section
115 instead of deferring to the ongoing civil quiet title
action. It was well within the superior court’s
discretion to proceed under section 115 and not wait
until the civil suit was resolved.
III
DEO’S CONSTITUTIONAL CLAIMS
Deo additionally asserts that his due process rights
under the California and federal constitutions were
violated because the superior court’s order under
section 115 was “wholly contrary to established
California law,” and he “was deprived of his
opportunity to confront witnesses . . . during the grand
jury proceedings upon which the court’s order[] [was]
based.” We disagree. As we discuss above, the
superior court’s order was not contrary to California
law. Moreover, Deo was presented with several
opportunities to oppose the People’s motion, present
evidence (including deposition testimony of the
Lorenzanas), and challenge the evidence relied on by
the People. And Deo has not provided any authority
where a third party has a due process right to question
witnesses in a grand jury proceeding. On this record,
we conclude Deo’s due process claims are without
merit.

App. 18
Similarly, we are not persuaded by Deo’s assertion
that the superior court’s order voiding the Deo Deed of
Trust constituted a taking without just compensation
under the Fifth Amendment of the United States
Constitution. Because the superior court correctly
found that the Deo Deed of Trust was void, that void
document passed no title to Deo upon which he could
claim a property interest. Thus, Deo’s claim of an
unlawful taking necessarily fails.
DISPOSITION
The order is affirmed.
HUFFMAN, Acting P. J.
WE CONCUR:
HALLER, J.
O’ROURKE, J.
KEVIN J. LANE, Clerk of the Court of
Appeal, Fourth Appellate District, State
of California, does hereby Certify that the
preceding is a true and correct copy of the
Original of this document/order/opinion
filed in this Court, as shown by the
records of my office.
WITNESS, my hand and the Seal of this
Court.
[SEAL]

05/02/2019

App. 19
KEVIN J. LANE, CLERK
By /s/

Deputy Clerk

App. 20

APPENDIX B
CERTIFIED FOR PUBLICATION
COURT OF APPEAL,
FOURTH APPELLATE DISTRICT
DIVISION ONE
STATE OF CALIFORNIA
D073992
(Super. Ct. No. SCD266414)
[Filed May 22, 2019]
_____________________________
THE PEOPLE,
)
)
Plaintiff and Respondent,
)
)
v.
)
)
YOLANDA ASTORGA-LIDER, )
)
Defendant;
)
)
SUNIL DEO,
)
)
Real Party in Interest
)
and Appellant.
)
_____________________________ )
ORDER CERTIFYING OPINION FOR
PUBLICATION

App. 21
THE COURT:
The opinion in this case filed May 2, 2019, was not
certified for publication. It appearing the opinion
meets the standards for publication specified in
California Rules of Court, rule 8.1105(c), the request
pursuant to rule 8.1120(a) for publication is
GRANTED.
IT IS HEREBY CERTIFIED that the opinion meets
the standards for publication specified in California
Rules of Court, rule 8.1105(c); and
ORDERED that the words “Not to Be Published in
the Official Reports” appearing on page one of said
opinion be deleted and the opinion herein be published
in the Official Reports.
HUFFMAN, Acting P. J.
Copies to: All parties
KEVIN J. LANE, Clerk of the Court of
Appeal, Fourth Appellate District, State
of California, does hereby Certify that the
preceding is a true and correct copy of the
Original of this document/order/opinion
filed in this Court, as shown by the
records of my office.
WITNESS, my hand and the Seal of this
Court.
[SEAL]

05/22/2019

App. 22
KEVIN J. LANE, CLERK
By /s/

Deputy Clerk

App. 23

APPENDIX C
SUPERIOR COURT OF THE
STATE OF CALIFORNIA
FOR THE COUNTY OF SAN DIEGO
CENTRAL DIVISION
Court No. SCD266414
DA No. AED132
[Filed March 5, 2018]
_____________________________
THE PEOPLE OF THE
)
STATE OF CALIFORNIA,
)
Plaintiff,
)
)
v.
)
)
YOLANDA ASTORGA-LIDER, )
)
Defendant(s). )
_____________________________ )
ORDER DECLARING RECORDED INSTRUMENTS
VOID
[CAL. PENAL CODE SECTION 115]
TO THE RECORDER OF SAN DIEGO COUNTY AND
ALL OTHER INTERESTED PARTIES:
WHEREAS defendant pled guilty to two counts of
causing forged documents to be recorded, in violation of
Cal. Penal Code section 115(a);

App. 24
WHEREAS defendant entered into a waiver under
People v. Harvey (1979) 25 Cal. 3d 754 in return for
dismissal of seven additional counts of causing forged
documents to be recorded in violation of Cal. Penal
Code section 115(a);
WHEREAS defendant stipulated to the facts set
forth in the Grand Jury Transcript in this case,
WHEREAS this Court has: (i) read and considered
the People’s Motion for an Order Declaring Recorded
Instruments Void [Penal Code section 115(c)] and the
accompanying points and authorities, (ii) read and
considered Interested Party Sunil Deo’s Opposition to
People’s Motion for an Order Declaring Recorded
Instruments Void and the Compendium of Exhibits
thereto, (iii) read and considered True Gem LLC’s
Opposition to People’s Motion for an Order Declaring
Recorded Instrument Void; (iv) read and considered
People’s Reply to Sunil Deo’s Opposition to the People’s
Motion for an Order Declaring Recorded Instruments
Void; (v) read and considered People’s Reply Brief to
True Gem’s Opposition to People’s Motion for an Order
Declaring Instruments Void; (vi) read and considered
Interested Party Sunil Deo’s Supplemental Brief
Regarding the People’s Motion For An Order Declaring
Recorded Instruments Void and Objections to the
People’s Request for Judicial Notice; (vii) read and
considered True Gem’s Objections to the People’s
Request for Judicial Notice; (viii) read and considered
People’s Further Reply to Sunil Deo’s Opposition to the
People’s Motion for an Order Declaring Recorded
Instruments Void; (ix) read and considered Sunil Deo’s
Reply to the People’s Reply to Interested Party Sunil

App. 25
Deo’s Opposition; (x) read and considered Interested
Party Sunil Deo’s Objections to Declaration of Diana
Moore In Support of People’s Further Reply to Sunil
Deo’s Opposition to the People’s Motion for an Order
Declaring Recorded Instruments Void and Proposed
Order; (xi) considered the non-opposition of any
interested parties in regards to the People’s Motion as
to Counts 10, 13, 17, 20, 29, 34 and 40; (xii) taken
judicial notice of defendant’s Plea of Guilty, filed in this
case on September 11, 2017, and of the Grand Jury
Transcript Volumes I and II, dated January 17-23,
2017, and exhibits thereto; (xiii) conducted a hearing
on February 13, 2018, pursuant to Penal Code section
115(c) and considered arguments therein.
Good cause appearing therefor, this Court issued an
oral ruling on February 13, 2018 declaring the deeds of
trust as to counts 13, 17, 20, 29, 34 and 40 forgeries
and VOID ab initio. As to the deeds of trust in Counts
3 and 7, the Court took the matter under submission
and issued a written Order dated February 23, 2018,
declaring those deeds of trust forgeries in that the
victims believed the documents they signed to be
substantially different from their true nature and this
to be VOID ab initio (Attachment 1).
IT IS FURTHER ORDERED, ADJUDGED AND
DECREED as follows:
1. Deeds of Trust with the following Recorder’s
Reference Numbers recorded in the San Diego
County Recorder’s Office, certified copies of
which are attached, are forgeries and are VOID
ab initio:

App. 26
(i)

Recorder’s Reference No. 2013-0743162
[Address: 3737 Sunset Lane, San
Ysidro CA 92173]
[APN: 638-091-04-00] (Attachment 2)

(ii)

Recorder’s Reference No. 2014-0123763
[Address: 3363 Wittman Way, San
Ysidro CA 92173]
[APN: 665-063-22-00] (Attachment 3)

(iii)

Recorder’s Reference No. 2014-0448870
[Address: 3741 Sunset Lane, San
Ysidro CA 92173]
[APN: 638-091-06-00] (Attachment 4)

(iv)

Recorder’s Reference No. 2015-0049047
[Address: 761 Brookstone Road #204,
Chula Vista CA 91913]
[APN: 595-222-26-46] (Attachment 5)

(v)

Recorder’s Reference No. 2015-0287763
[Address: 1837 Via Encantadoras, San
Ysidro CA 92173]
[APN: 637-146-02-00] (Attachment 6)

(vi)

Recorder’s Reference No. 2015-0405002
[Address: 1026 South 38th Street, San
Diego CA 92113]
[APN: 550-211-26-00] (Attachment 7)

(vii)

Recorder’s Reference No. 2014-0291921
[Address: 1372 W. San Ysidro Blvd.
#B, San Diego CA 92173]
[APN: 637-010-75-03] (Attachment 8)

App. 27
(viii) Recorder’s Reference No. 2014-0392308
[Address: 1372 W. San Ysidro Blvd.
#B, San Ysidro CA 92173]
[APN: 637-010-75-03] (Attachment 9)
(ix)

Recorder’s Reference No. 2015-0168935
[Address: 812 Hollister Street #A, San
Diego CA 92154]
[APN: 628-060-37-29] (Attachment
10)

2. This Order is to be effective as of the date of
each document’s filing.
3. It is the Order of this Court that for the
purposes of determining title and ownership of
the property described in each document, the
documents described above and attached as
“Attachments 2-10” to this Order are to be
considered as if they never existed.
4. The People previously recorded notices of
pendency of action in this matter with regards to
each of the above-referenced properties,
respectively with the following Recorder’s
Reference Nos.:
Recorder’s Reference No. 2017-0061256
Recorder’s Reference No. 2017-0061257
Recorder’s Reference No. 2017-0061258
Recorder’s Reference No. 2017-0061254
Recorder’s Reference No. 2017-0061249
Recorder’s Reference No. 2017-0061255

App. 28
Recorder’s Reference No. 2017-0061251
Recorder’s Reference No. 2017-0061250
Recorder’s Reference No. 2017-0061252
The People are ordered to record a withdrawal of
these notices of pendency of action within 10
calendar days.
5. This Order shall be filed and recorded without
delay by the District Attorney at the San Diego
County Recorder’s Office.
6. Recording fees for this Order and for the
withdrawals of notices of pendency of action are
waived pursuant to California Government Code
§ 27383.
Date: ______

/s/Howard H. Shore
HONORABLE HOWARD H. SHORE
SUPERIOR COURT JUDGE

App. 29

APPENDIX D
SUPERIOR COURT OF THE
STATE OF CALIFORNIA
FOR THE COUNTY OF SAN DIEGO
CENTRAL DIVISION
Court No. SCD266414
DA No. AED132
[Filed February 23, 2018]
_____________________________
THE PEOPLE OF THE
)
STATE OF CALIFORNIA,
)
Plaintiff,
)
)
v.
)
)
YOLANDA ASTORGA-LIDER, )
)
Defendant(s). )
_____________________________ )
People’s Motion For An Order Declaring
Recorded Instruments Void (California Penal
Code Section 115)
Order
This Court has previously granted the People’s
Motion with regard to the documents listed in People’s
Motion, pp. 1 and 2, for Counts 10, 13, 17, 20, 29, 34,
and 40. The Court heard argument from Interested
Parties True Gem (Count 3) and Sunil Deo (Count 7),

App. 30
as well as the People, at a hearing authorized by Penal
Code section 115(f), and took the Motion under
submission with respect to the named documents
involved in Counts 3 and 7, and finds as follows:
1) The People’s motion is duly authorized by Penal
Code section 115 (e)(1), in that defendant has
entered guilty pleas to two courts of Penal Code
section 115, in addition to other guilty pleas,
accompanied by a waiver pursuant to People v.
Harvey (1979) 25 C.3d 754, which allows the
Court to consider the requested relief with
respect to the documents involved in all counts.
2) By virtue of defendant’s pleas of guilty, Nicholas
and Elizabeth Corral (Count 3), and Jose and
Nohemi Lorenzana (Count 7) are crime victims
as a matter of law. The issues raised by the
Interested Parties relate to the authority
provided in Penal Code Section 115(f)(9)(A) and
(B), for the Court to defer legitimate title issues
to pending civil proceedings.
3) As the People correctly point out in Argument
VII in the two Reply Briefs to Interested Parties’
Opposition, the legislative intent behind the
enactment of Penal Code section 115(e), was to
broaden the authority of criminal law judges to
protect crime victims from being further
victimized by being subjected to the timeconsuming and potentially costly process of
litigation in a quiet title civil proceeding.
4) The Court must, therefore, determine whether
the documents in question are “forgeries” as a

App. 31
matter of law. If so, they are void ab initio, and
there would be no basis for this Court to defer
any title issues to a civil court. (See, e.g.,
Schiavon v. Arnaudo Brothers (2000), 84
Cal.App.4th 374). If the documents are not
considered “forgeries,” then the Court may, but
is not required, to defer these issues to the
pending civil quiet title proceedings.
5) Because this issue arises out of defendant’s
admitted criminal conduct, and the Corrals and
Lorenzanas are crime victims as a matter of law
by virtue of defendant’s guilty pleas, the context
of the issues raised by Interested Parties is
different from that of a title dispute arising in a
purely civil context, where less information is
available to resolve factual disputes without
extensive discovery. Here, for example, available
information includes substantial Grand Jury
testimony leading to the Indictment, as well as
Defendant’s judicial admissions underlying her
guilty pleas.
6) Interested Parties have submitted pleadings
setting forth various objections to specific items
of evidence being considered by this Court, citing
various provisions of the California Evidence
Code. Evidence Code Section 300 provides that,
except for grand jury proceedings, the Evidence
Code shall apply in every action “except as
otherwise provided by statute.” No published
appellate decision has discussed the
applicability of the Evidence Code to hearings
conducted pursuant to Penal Code section 115(f).

App. 32
The language in that section that refers to
interested parties, however, suggests that such
hearings are to be conducted informally, with
the Court authorized to weigh all available
information and exercise its discretion.
Specifically, Section 115(f)(8) gives interested
parties the right to be heard and to “present
information to the court.” The use of the term
“information,” instead of “evidence,” suggests
that the Legislature intended the Court to have
the power to consider any information presented
by interested parties, whether or not admissible
under the Evidence Code. Consequently, it
would make no sense to apply a different rule to
Prosecution and Defense for the same
proceeding. Further, informal hearings are
authorized in other proceedings. For example,
Code of Civil Procedure Sections 116.510 et seq.
provide for informal hearings in Small Claims
trials, where the Court may consider hearsay
and other evidence that would be inadmissible
under the Evidence Code. In addition, CCP
116.520(c) authorities the Court in Small Claims
cases to consult witnesses informally and
conduct its own investigation without notice to
the parties. In criminal cases, victim restitution
hearings do not require the formalities of a trial,
and the Court has virtually unlimited discretion
to consider and weigh otherwise inadmissible
evidence. People v. Prosser (2007) 157
Cal.App.4th 682, 690-692; Penal Code Section
1203.1d (d). Therefore, this Court has considered
all information submitted by Prosecution,

App. 33
Defense, and Interested Parties, whether or not
admissible under the California Evidence Code.
7) Interested Parties argue that if the signatures of
the victims are authentic, they cannot be
forgeries. The People, on the other hand, cite
Buck v. Superior Court (1965) 232 Cal.App.2d
153, for the proposition that where someone
signs a document, believing it to be substantially
different from its true nature, the paper so
signed is just as much a forgery as it would have
been had the signature been forged (232
Cal.App.2d at p.162).
8) Considering all of the available information
presented by all parties, this Court finds that
the victims in Counts 3 and 7 believed the
documents they signed to be substantially
different from their true nature. Consequently,
the documents in Counts 3 and 7 are forgeries as
a matter of law and are void ab initio,
irrespective of any good faith on the part of
Interested Parties, or alleged negligence on the
part of the victims.
9) The Court makes no separate finding regarding
the recordability of documents bearing forged
notarization. Those forgeries are simply
additional evidence supporting defendant’s pleas
of guilty to the crimes in this case.

App. 34
10)

Therefore, this Court grants People’s Motion
with respect to the documents in Counts 3
and 7.

11)

The District Attorney shall submit a
proposed order that complies with the
requirements of Penal Code section 115(e)(1),
including copies of the relevant recorded
documents.
So ordered.
/s/Howard H. Shore
Howard H. Shore
Judge of the Superior Court
February 23, 2018

App. 35

APPENDIX E
IN THE SUPREME COURT OF CALIFORNIA
S256533
En Banc
Court of Appeal, Fourth Appellate District,
Division One - No. D073992
[Filed August 28, 2019]
_____________________________
THE PEOPLE,
)
Plaintiff and Respondent,
)
)
v.
)
)
YOLANDA ASTORGA-LIDER, )
Defendant;
)
)
SUNIL DEO,
)
Real Party in Interest
)
and Appellant.
)
_____________________________ )
The petition for review is denied.

CANTIL-SAKAUYE
Chief Justice

App. 36

APPENDIX F
CAL. PENAL CODE
PART 1. OF CRIMES AND PUNISHMENTS [25 680] (Part 1 enacted 1872.)
TITLE 7. OF CRIMES AGAINST PUBLIC
JUSTICE [92 - 186.34] (Title 7 enacted 1872.)
CHAPTER 4. Forging, Stealing, Mutilating, and
Falsifying Judicial and Public Records and
Documents [112 - 117] (Chapter 4 enacted 1872.)
(a) Every person who knowingly procures or offers any
false or forged instrument to be filed, registered, or
recorded in any public office within this state, which
instrument, if genuine, might be filed, registered, or
recorded under any law of this state or of the United
States, is guilty of a felony.
(b) Each instrument which is procured or offered to be
filed, registered, or recorded in violation of subdivision
(a) shall constitute a separate violation of this section.
(c) Except in unusual cases where the interests of
justice would best be served if probation is granted,
probation shall not be granted to, nor shall the
execution or imposition of sentence be suspended for,
any of the following persons:
(1) Any person with a prior conviction under this
section who is again convicted of a violation of this
section in a separate proceeding.

App. 37
(2) Any person who is convicted of more than one
violation of this section in a single proceeding, with
intent to defraud another, and where the violations
resulted in a cumulative financial loss exceeding one
hundred thousand dollars ($100,000).
(d) For purposes of prosecution under this section, each
act of procurement or of offering a false or forged
instrument to be filed, registered, or recorded shall be
considered a separately punishable offense.
(e) (1) After a person is convicted of a violation of this
section, or a plea is entered whereby a charge alleging
a violation of this section is dismissed and waiver is
obtained pursuant to People v. Harvey (1979) 25 Cal.3d
754, upon written motion of the prosecuting agency, the
court, after a hearing described in subdivision (f), shall
issue a written order that the false or forged
instrument be adjudged void ab initio if the court
determines that an order is appropriate under
applicable law. The order shall state whether the
instrument is false or forged, or both false and forged,
and describe the nature of the falsity or forgery. A copy
of the instrument shall be attached to the order at the
time it is issued by the court and a certified copy of the
order shall be filed, registered, or recorded at the
appropriate public office by the prosecuting agency.
(2) (A) If the order pertains to a false or forged
instrument that has been recorded with a county
recorder, an order made pursuant to this section shall
be recorded in the county where the affected real
property is located. The order shall also reference the
county recorder’s document recording number of any

App. 38
notice of pendency of action recorded pursuant to
paragraph (2) of subdivision (f).
(B) As to any order, notice of pendency of action, or
withdrawal of notice of pendency of action recorded
pursuant to this section, recording fees shall be waived
pursuant to Section 27383 of the Government Code.
(f) A prosecuting agency shall use the following
procedures in filing a motion under subdivision (e):
(1) Within 10 calendar days of filing a criminal
complaint or indictment alleging a violation of this
section, the prosecuting agency shall provide written
notice by certified mail to all parties who have an
interest in the property affected by the false or forged
instrument, or in the instrument itself, including those
described in paragraph (5).
(2) (A) Within 10 calendar days of filing a criminal
complaint or indictment alleging a violation of this
section, the prosecuting agency shall record a notice of
pendency of action in the county in which the affected
real property is located.
(B) Within 10 calendar days of the case being
adjudicated or dismissed without obtaining an order
pursuant to subdivision (e), the prosecuting agency
shall record a withdrawal of the notice of pendency of
action in the county where the affected real property is
located.
(3) The written notice and notice of pendency of action
described in paragraphs (1) and (2) shall inform the
interested parties that a criminal action has
commenced that may result in adjudications against

App. 39
the false or forged instrument or the property affected
by the false or forged instrument, and shall notify the
interested parties of their right to be heard if a motion
is brought under subdivision (e) to void the false or
forged instrument. The notice shall state the street
address, if available, and the legal description of the
affected real property.
(4) Failure of the prosecuting agency to provide written
notice or record a pendency of action as required under
paragraphs (1) and (2) within 10 calendar days shall
not prevent the prosecuting agency from later making
a motion under subdivision (e), but the court shall take
the failure to provide notice or record a pendency of
action as required under paragraphs (1) and (2) as
reason to provide any interested parties additional time
to respond to the motion. Failure of the prosecuting
agency to so notify interested parties under this
subdivision or record a pendency of action as required
under paragraphs (1) and (2) within 10 calendar days
shall create a presumption that a finding as described
in paragraph (9) is necessary to protect the property
rights of the interested party or parties.
(5) If the instrument sought to be declared void
involves real property, “interested parties” include, but
are not limited to, all parties who have recorded with
the county recorder in the county where the affected
property is located any of the following: a deed, lien,
mortgage, deed of trust, security interest, lease, or
other instrument declaring an interest in, or requesting
notice relating to, the property affected by the false or
forged instrument as of the date of the filing of the
criminal complaint or indictment.

App. 40
(6) Any party not required to be noticed under
paragraph (1) or (5) who nonetheless notifies the
prosecuting agency in writing of the party’s desire to be
notified if a motion is brought under subdivision (e) to
void the false or forged instrument shall be treated as
an interested party as defined in paragraph (1) or (5).
(7) The court shall set a hearing for the motion brought
by the prosecuting agency under subdivision (e) no
earlier than 90 calendar days from the date the motion
is made. The prosecuting agency shall provide a copy
by certified mail of the written motion and a notice of
hearing to all interested parties described in
paragraphs (1), (5), or (6), and all other persons who
obtain an interest in the property prior to recordation
of notice of pendency of action no later than 90 days
before the hearing date set by the court. The notice
shall state the street address, if available, and the legal
description of the affected real property.
(8) At a hearing on a motion brought by the prosecuting
agency under subdivision (e), the defendant,
prosecuting agency, and interested parties described in
paragraphs (1), (5), or (6), shall have a right to be heard
and present information to the court. No party shall be
denied a right to present information due to a lack of
notice by the prosecuting agency or failure to contact
the prosecuting agency or the court prior to the
hearing.
(9) (A) At a hearing on a motion brought by a
prosecuting agency under subdivision (e), if the court
determines that the interests of justice or the need to
protect the property rights of any person or party so
requires, including, but not limited to, a finding that

App. 41
the matter may be more appropriately determined in a
civil proceeding, the court may decline to make a
determination under subdivision (e).
(B) If, prior to the hearing on the motion, any person or
party files a quiet title action that seeks a judicial
determination of the validity of the same false or forged
instrument that is the subject of the motion, or the
status of an interested party as a bona fide purchaser
of, or bona fide holder of an encumbrance on, the
property affected by the false or forged instrument, the
court may consider that as an additional but not
dispositive factor in making its determination under
subdivision (e); provided, however, that a final
judgment previously entered in that quiet title action
shall be followed to the extent otherwise required by
law.
(g) As used in this section, “prosecuting agency” means
a city attorney, a district attorney, the Attorney
General, or other state or local agency actively
prosecuting a case under this section.
(h) An order made pursuant to subdivision (e) shall be
considered a judgment, and subject to appeal in
accordance with, paragraph (1) of subdivision (a) of
Section 904.1 of the Code of Civil Procedure.
(Amended by Stats. 2014, Ch. 455, Sec. 1. (AB 1698)
Effective January 1, 2015.)

App. 42

APPENDIX G
DOC # 2014-0123763
MAR 28, 2014 4:26 PM
OFFICIAL RECORDS
SAN DIEGO COUNTY RECORDER’S OFFICE
Ernest J. Dronenburg, Jr., COUNTY RECORDER
Recording Requested By:
SUNIL DEO
And After Recording Return To:
SUNIL DEO
9912 MANGOS DRIVE
SAN RAMON, CALIFORNIA 94583
Loan Number: 330990-122
1430244
[Space Above This Line For Recording Date]
665-063-22-00
DEED OF TRUST
DEFINITIONS
Words used in multiple sections of this document are
defined below and other words are defined in Sections
3, 11, 13, 18, 20 and 21. Certain rules regarding the
usage of words used in this document are also provided
in Section 16.

App. 43
(A) “Security Instrument” means this document,
which is dated MARCH 24, 2014, together with all
Riders to this document.
(B) “Borrower” is JOSE MANUEL LORENZANA
AND NOHEMI LORENZANA JOINT TENANTS.
BORROWER’S ADDRESS IS 303 3RD AVE #A,
CHULA VISTA, CA 91910.
Borrower is the trustor under this Security Instrument.
(C) “Lender” is SUNIL DEO
Lender is a
organized and existing under the
laws of CALIFORNIA
Lender’s address is 9912 MANGOS DRIVE, SAN
RAMON, CALIFORNIA 94583
Lender is the beneficiary under this Security
instrument.
(D) “Trustee” is EQUITY TITLE COMPANY
(E) “Note” means the promissory note signed by
Borrower and dated MARCH 24, 2014
The Note states that Borrower owes Lender TWO
HUNDRED SEVENTY -THREE THOUSAND SEVEN
HUNDRED FIFTY AND 00/100 Dollars (U.S. $
273,750.00 ) plus interest. Borrower has promised to
pay this debt in regular Periodic Payments and to pay
the debt in full not later than APRIL 1, 2016
(F) “Property” means the property that is described
below under the heading “Transfer of Rights in the
Property.”
(G) “Loan” means the debt evidenced by the Note,
plus interest, any prepayment charges and late charges

App. 44
due under the Note, and all sums due under this
Security Instrument, plus interest.
(H) “Riders” means all Riders to this Security
Instrument that are executed by Borrower. The
following Riders are to be executed by Borrower [check
box as applicable]:
9 Adjustable Rate Rider
: Balloon Rider
: 1-4 Family Rider
9 Condominium Rider
9 Planned Unit Development Rider
9 Biweekly Payment Rider
9 Second Home Rider
9 Other(s) [specify]
(I) “Applicable Law” means all controlling applicable
federal, state and local statutes, regulations,
ordinances and administrative rules and orders (that
have the effect of law) as well as all applicable final,
non-appealable judicial opinions.
(J) “Community Association Dues, Fees, and
Assessments” means all dues, fees, assessments and
other charges that are imposed on Borrower or the
Property by a condominium association, homeowners
association or similar organization.
(K) “Electronic Funds Transfer” means any
transfer of funds, other than a transaction originated

App. 45
by check, draft, or similar paper instrument, which is
initiated through an electronic terminal, telephonic
instrument, computer, or magnetic tape so as to order,
instruct, or authorize a financial institution to debit or
credit an account. Such term includes, but is not
limited to, point-of-sale transfers, automated teller
machine transactions, transfers initiated by telephone,
wire transfers, and automated clearinghouse transfers.
(L) “Escrow Items” means those items that are
described in Section 3.
(M) “Miscellaneous Proceeds” means any
compensation, settlement, award of damages, or
proceeds paid by any third party (other than insurance
proceeds paid under the coverages described in Section
5) for: (i) damage to, or destruction of, the Property;
(ii) condemnation or other taking of all or any part of
the Property; (iii) conveyance in lieu of condemnation;
or (iv) misrepresentations of, or omissions as to, the
value and/or condition of the Property.
(N) “Mortgage Insurance” means insurance
protecting Lender against the nonpayment of, or
default on, the Loan.
(O) “Periodic Payment” means the regularly
scheduled amount due for (i) principal and interest
under the Note, plus (ii) any amounts under Section 3
of this Security Instrument.
(P) “RESPA” means the Real Estate Settlement
Procedures Act (12 U.S.C. §2601 et seq.) and its
implementing regulation, Regulation X (12 C.F.R. Part
1024), as they might be amended from time to time, or
any additional or successor legislation or regulation

App. 46
that governs the same subject matter. As used in this
Security Instrument, “RESPA” refers to all
requirements and restrictions that are imposed in
regard to a “federally related mortgage loan” even if the
Loan does not qualify as a “federally related mortgage
loan” under RESPA.
(Q) “Successor in Interest of Borrower” means any
party that has taken title to the Property, whether or
not that party has assumed Borrower’s obligations
under the Note and/or this Security Instrument.
TRANSFER OF RIGHTS IN THE PROPERTY
This Security Instrument secures to Lender: (i) the
repayment of the Loan, and all renewals, extensions
and modifications of the Note; and (ii) the performance
of Borrower’s covenants and agreements under this
Security Instrument and the Note. For this purpose,
Borrower irrevocably grants and conveys to Trustee, in
trust, with power of sale, the following described
property located in the
COUNTY

of

[Type of Recording
Jurisdiction]

SAN DIEGO
[Name of Recording
Jurisdiction]

which currently has the address of 3363 WITTMAN
WAY [Street]
SAN YSIDRO [City]
Code] (“Property Address”):

, California 92173 [Zip

TOGETHER WITH all the improvements now or
hereafter erected on the property, and all easements,
appurtenances, and futures now or hereafter a part of

App. 47
the property. All replacements and additions shall also
be covered by this Security Instrument. All of the
foregoing is referred to in this Security Instrument as
the “Property.”
BORROWER COVENANTS that Borrower is
lawfully seised of the estate hereby conveyed and has
the right to grant and convey the Property and that the
Property is unencumbered, except for encumbrances of
record. Borrower warrants and will defend generally
the title to the Property against all claims and
demands, subject to any encumbrances of record.
THIS SECURITY INSTRUMENT combines uniform
covenants for national use and non-uniform covenants
with limited variations by jurisdiction to constitute a
uniform security instrument covering real property.
UNIFORM COVENANTS . Borrower and Lender
covenant and agree as follows:
1. Payment or Principal, Interest, Escrow
Items, Prepayment Charges, and Late Charges.
Borrower shall pay when due the principal of, and
interest on, the debt evidenced by the Note and any
prepayment charges and late charges due under the
Note. Borrower shall also pay funds for Escrow Items
pursuant to Section 3. Payments due under the Note
and this Security Instrument shall be made in U.S.
currency. However, if any check or other instrument
received by Lender as payment under the Note or this
Security Instrument is returned to Lender unpaid,
Lender may require that any or all subsequent
payments due under the Note and this Security
Instrument be made in one or more of the following

App. 48
forms, as selected by Lender: (a) cash; (b) money order;
(c) certified check, bank check, treasurer’s check or
cashier’s check, provided any such check is drawn upon
an institution whose deposits are insured by a federal
agency, instrumentality, or entity; or (d) Electronic
Funds Transfer.
Payments are deemed received by Lender when
received at the location designated in the Note or at
such other location as may be designated by Lender in
accordance with the notice provisions in Section 15.
Lender may return any payment or partial payment if
the payment or partial payments are insufficient to
bring the Loan current. Lender may accept any
payment or partial payment insufficient to bring the
Loan current, without waiver of any rights hereunder
or prejudice to its rights to refuse such payment or
partial payments in the future, but Lender is not
obligated to apply such payments at the time such
payments are accepted. If each Periodic Payment is
applied as of its scheduled due date, then Lender need
not pay interest on unapplied funds. Lender may hold
such unapplied funds until Borrower makes payment
to bring the Loan current. If Borrower does not do so
within a reasonable period of time, Lender shall either
apply such funds or return them to Borrower. If not
applied earlier, such funds will be applied to the
outstanding principal balance under the Note
immediately prior to foreclosure. No offset or claim
which Borrower might have now or in the future
against Lender shall relieve Borrower from making
payments due under the Note and this Security
Instrument or performing the covenants and
agreements secured by this Security Instrument.

App. 49
2. Application of Payments or Proceeds. Except
as otherwise described in this Section 2, all payments
accepted and applied by Lender shall be applied in the
following order of priority: (a) interest due under the
Note; (b) principal due under the Note; (c) amounts due
under Section 3. Such payments shall be applied to
each Periodic Payment in the order in which it became
due. Any remaining amounts shall be applied first to
late charges, second to any other amounts due under
this Security Instrument, and then to reduce the
principal balance of the Note.
If Lender receives a payment from Borrower for a
delinquent Periodic Payment which includes a
sufficient amount to pay any late charge due, the
payment may be applied to the delinquent payment
and the late charge. If more than one Periodic Payment
is outstanding, Lender may apply any payment
received from Borrower to the repayment of the
Periodic Payments if, and to the extent that, each
payment can be paid in full. To the extent that any
excess exists after the payment is applied to the full
payment of one or more Periodic Payments, such excess
may be applied to any late charges due. Voluntary
prepayments shall be applied first to any prepayment
charges and then as described in the Note.
Any application of payments, insurance proceeds, or
Miscellaneous Proceeds to principal due under the Note
shall not extend or postpone the due date, or change
the amount, of the Periodic Payments.
3. Funds for Escrow Items. Borrower shall pay to
Lender on the day Periodic Payments are due under
the Note, until the Note is paid in full, a sum (the

App. 50
“Funds”) to provide for payment of amounts due for:
(a) taxes and assessments and other items which can
attain priority over this Security Instrument as a lien
or encumbrance on the Property; (b) leasehold
payments or ground rents on the Property, if any;
(c) premiums for any and all insurance required by
Lender under Section 5; and (d) Mortgage Insurance
premiums, if any, or any sums payable by Borrower to
Lender in lieu of the payment of Mortgage Insurance
premiums in accordance with the provisions of Section
10. These items are called “Escrow Items.” At
origination or at any time during the term of the Loan,
Lender may require that Community Association Dues,
Fees, and Assessments, if any, be escrowed by
Borrower, and such dues, fees and assessments shall be
an Escrow Item. Borrower shall promptly furnish to
Lender all notices of amounts to be paid under this
Section. Borrower shall pay Lender the Funds for
Escrow Items unless Lender waives Borrower’s
obligation to pay the Funds for any or all Escrow Items.
Lender may waive Borrower’s obligation to pay to
Lender Funds for any or all Escrow Items at any time.
Any such waiver may only be in writing. In the event
of such waiver, Borrower shall pay directly, when and
where payable, the amounts due for any Escrow Items
for which payment of Funds has been waived by
Lender and, if Lender requires, shall furnish to Lender
receipts evidencing such payment within such time
period as Lender may require. Borrower’s obligation to
make such payments and to provide receipts shall for
all purposes be deemed to be a covenant and agreement
contained in this Security Instrument, as the phrase
“covenant and agreement” is used in Section 9. If
Borrower is obligated to pay Escrow Items directly,

App. 51
pursuant to a waiver, and Borrower fails to pay the
amount due for an Escrow Item, Lender may exercise
its rights under Section 9 and pay such amount and
Borrower shall then be obligated under Section 9 to
repay to Lender any such amount. Lender may revoke
the waiver as to any or all Escrow Items at any time by
a notice given in accordance with Section 15 and, upon
such revocation, Borrower shall pay to Lender all
Funds, and in such amounts, that are then required
under this Section 3.
Lender may, at any time, collect and hold Funds in
an amount (a) sufficient to permit Lender to apply the
Funds at the time specified under RESPA, and (b) not
to exceed the maximum amount a lender can require
under RESPA. Lender shall estimate the amount of
Funds due on the basis of current data and reasonable
estimates of expenditures of future Escrow Items or
otherwise in accordance with Applicable Law.
The Funds shall be held in an institution whose
deposits are insured by a federal agency,
instrumentality, or entity (including Lender, if Lender
is an institution whose deposits are so insured) or in
any Federal Home Loan Bank. Lender shall apply the
Funds to pay the Escrow Items no later than the time
specified under RESPA. Lender shall not charge
Borrower for holding and applying the Funds, annually
analyzing the escrow account, or verifying the Escrow
Items, unless Lender pays Borrower interest on the
Funds and Applicable Law permits Lender to make
such a charge. Unless an agreement is made in writing
or Applicable Law requires interest to be paid on the
Funds, Lender shall not be required to pay Borrower

App. 52
any interest or earnings on the Funds. Borrower and
Lender can agree in writing, however, chat interest
shall be paid on the Funds. Lender shall give to
Borrower, without charge, an annual accounting of the
Funds as required by RESPA.
If there is a surplus of Funds held in escrow, as
defined under RESPA, Lender shall account to
Borrower for the excess funds in accordance with
RESPA. If there is a shortage of Funds held in escrow,
as defined under RESPA, Lender shall notify Borrower
as required by RESPA, and Borrower shall pay to
Lender the amount necessary to make up the shortage
in accordance with RESPA, but in no more than 12
monthly payments. If there is a deficiency of Funds
held in escrow, as defined under RESPA, Lender shall
notify Borrower as required by RESPA, and Borrower
shall pay to Lender the amount necessary to make up
the deficiency in accordance with RESPA, but in no
more than 12 monthly payments.
Upon payment in full of all sums secured by this
Security Instrument, Lender shall promptly refund to
Borrower any Funds held by Lender.
4. Charges; Liens. Borrower shall pay all taxes,
assessments, charges, fines, and impositions
attributable to the Property which can attain priority
over this Security Instrument, leasehold payments or
ground rents on the Property, if any, and Community
Association Dues, Fees, and Assessments, if any. To
the extent that these items are Escrow Items, Borrower
shall pay them in the manner provided in Section 3.

App. 53
Borrower shall promptly discharge any lien which
has priority over this Security Instrument unless
Borrower: (a) agrees in writing to the payment of the
obligation secured by the lien in a manner acceptable
to Lender, but only so long as Borrower is performing
such agreement; (b) contests the lien in good faith by,
or defends against enforcement of the lien in, legal
proceedings which in Lender’s opinion operate to
prevent the enforcement of the lien while those
proceedings are pending, but only until such
proceedings are concluded; or (c) secures from the
holder of the lien an agreement satisfactory to Lender
subordinating the lien to this Security Instrument. If
Leader determines that any part of the Property is
subject to a lien which can attain priority over this
Security Instrument, Lender may give Borrower a
notice identifying the lien. Within 10 days of the date
on which that notice is given, Borrower shall satisfy the
lien or take one or more of the actions set forth above
in this Section 4.
Lender may require Borrower to pay a one-time
charge for a real estate tax verification and/or reporting
service used by Lender in connection with this Loan.
5. Property Insurance. Borrower shall keep the
improvements now existing or hereafter erected on the
Property insured against loss by fire, hazards included
within the term “extended coverage,” and any other
hazards including, but not limited to, earthquakes and
floods, for which Lender requires insurance. This
insurance shall be maintained in the amounts
(including deductible levels) and for the periods that
Lender requires. What Lender requires pursuant to the

App. 54
preceding sentences can change during the term of the
Loan. The insurance carrier providing the insurance
shall be chosen by Borrower subject to Lender’s right to
disapprove Borrower’s choice, which right shall not be
exercised unreasonably. Lender may require Borrower
to pay, in connection with this Loan, either: (a) a onetime charge for flood zone determination, certification
and tracking services; or (b) a one-time charge for flood
zone determination and certification services and
subsequent charges each time remappings or similar
changes occur which reasonably might affect such
determination or certification. Borrower shall also be
responsible for the payment of any fees imposed by the
Federal Emergency Management Agency in connection
with the review of any flood zone determination
resulting from an objection by Borrower.
If Borrower fails to maintain any of the coverages
described above, Lender may obtain insurance
coverage, at Lender’s option and Borrower’s expense.
Lender is under no obligation to purchase any
particular type or amount of coverage. Therefore, such
coverage shall cover Lender, but might or might not
protect Borrower, Borrower’s equity in the Property, or
the contents of the Property, against any risk, hazard
or liability and might provide greater or lesser coverage
than was previously in effect. Borrower acknowledges
that the cost of the insurance coverage so obtained
might significantly exceed the cost of insurance that
Borrower could have obtained. Any amounts disbursed
by Lender under this Section 5 shall become additional
debt of Borrower secured by this Security Instrument.
These amounts shall bear interest at the Note rate
from the date of disbursement and shall be payable,

App. 55
with such interest, upon notice from Lender to
Borrower requesting payment.
All insurance policies required by Lender and
renewals of such policies shall be subject to Lender’s
right to disapprove such policies, shall include a
standard mortgage clause, and shall name Leader as
mortgagee and/or as an additional loss payee and
Borrower further agrees to generally assign rights to
insurance proceeds to the holder of the Note up to the
amount of the outstanding loan balance. Leader shall
have the right to hold the policies and renewal
certificates. If Lender requires, Borrower shall
promptly give to Lender all receipts of paid premiums
and renewal notices. If Borrower obtains any form of
insurance coverage, not otherwise required by Lender,
for damage to, or destruction of, the Property, such
policy shall include a standard mortgage clause and
shall name Lender as mortgagee and/or as an
additional Loss payee and Borrower further agrees to
generally assign rights to insurance proceeds to the
holder of the Note up to the amount of the outstanding
loan balance.
In the event of loss, Borrower shall give prompt
notice to the insurance carrier and Lender. Lender may
make proof of loss if not made promptly by Borrower.
Unless Lender and Borrower otherwise agree in
writing, any insurance proceeds, whether or not the
underlying insurance was required by Lender, shall be
applied to restoration or repair of the Property, if the
restoration or repair is economically feasible and
Lender’s security is not lessened. During such repair
and restoration period, Lender shall have the right to

App. 56
hold such insurance proceeds until Lender has had an
opportunity to inspect such Property to ensure the
work has been completed to Lender’s satisfaction,
provided that such inspection shall be undertaken
promptly. Lender may disburse proceeds for the repairs
and restoration in a single payment or in a series of
progress payments as the work is completed. Unless an
agreement is made in writing or Applicable Law
requires interest to be paid on such insurance proceeds,
Lender shall not be required to pay Borrower any
interest or earnings on such proceeds. Fees for public
adjusters, or other third parties, retained by Borrower
shall not be paid out of the insurance proceeds and
shall be the sole obligation of Borrower. If the
restoration or repair is not economically feasible or
Lender’s security would be lessened, the insurance
proceeds shall be applied to the sums secured by this
Security Instrument, whether or not then due, with the
excess, if any, paid to Borrower. Such insurance
proceeds shall be applied in the order provided for in
Section 2.
If Borrower abandons the Property. Lender may
file, negotiate and settle any available insurance claim
and related matters. If Borrower does not respond
within 30 days to a notice from Lender that the
insurance carrier has offered to settle a claim, then
Lender may negotiate and settle the claim. The 30-day
period will begin when the notice is given. In either
event, or if Lender acquires the Property under Section
22 or otherwise, Borrower hereby assigns to Lender
(a) Borrower’s rights to any insurance proceeds in an
amount not to exceed. the amounts unpaid under the
Note or this Security Instrument, and (b) any other of

App. 57
Borrower’s rights (other than the right to any refund of
unearned premiums paid by Borrower) under all
insurance policies covering the Property, insofar as
such rights are applicable to the coverage of the
Property. Lender may use the insurance proceeds
either to repair or restore the Property or to pay
amounts unpaid under the Note or this Security
Instrument, whether or not then due.
6. Occupancy. Borrower shall occupy, establish,
and use the Property as Borrower’s principal residence
within 60 days after the execution of this Security
Instrument and shall continue to occupy the Property
as Borrower’s principal residence for at least one year
after the date of occupancy, unless Lender otherwise
agrees in writing, which consent shall not be
unreasonably withheld, or unless extenuating
circumstances exist which are beyond Borrower’s
control.
7. Preservation, Maintenance and Protection
of the Property; Inspections. Borrower shall not
destroy, damage or impair the Property, allow the
Property to deteriorate or commit waste on the
Property. Whether or not Borrower is residing in the
Property. Borrower shall maintain the Property in
order to prevent the Property from deteriorating or
decreasing in value due to its condition. Unless it is
determined pursuant to Section 5 that repair or
restoration is not economically feasible, Borrower shall
promptly repair the Property if damaged to avoid
further deterioration or damage. If insurance or
condemnation proceeds are paid in connection with
damage to, or the taking of, the Property, Borrower

App. 58
shall be responsible for repairing or restoring the
Property only if Lender has released proceeds for such
purposes. Lender may disburse proceeds for the repairs
and restoration in a single payment or in a series of
progress payments as the work is completed. If the
insurance or condemnation proceeds are not sufficient
to repair or restore the Property, Borrower is not
relieved of Borrower’s obligation for the completion of
such repair or restoration.
Lender or its agent may make reasonable entries
upon and inspections of the Property. If it has
reasonable cause, Lender may inspect the interior of
the improvements on the Property. Lender shall give
Borrower notice at the time of or prior to such an
interior inspection specifying such reasonable cause.
8. Borrower’s Loan Application. Borrower shall
be in default if, during the Loan application process,
Borrower or any persons or entities acting at the
direction of Borrower or with Borrower’s knowledge or
consent gave materially false, misleading, or inaccurate
information or statements to Lender (or failed to
provide Lender with material information) in
connection with the Loan. Material representations
include, but are not limited to, representations
concerning Borrower’s occupancy of the Property as
Borrower’s principal residence.
9. Protection of Lender’s Interest in the
Property and Rights Under this Security
Instrument. If (a) Borrower fails to perform the
covenants and agreements contained in this Security
Instrument, (b) there is a legal proceeding that might
significantly affect Lender’s interest in the Property

App. 59
and/or rights under this Security Instrument (such as
a proceeding in bankruptcy, probate, for condemnation
or forfeiture, for enforcement of a lien which may attain
priority over this Security Instrument or to enforce
laws or regulations), or (c) Borrower has abandoned the
Property, then Lender may do and pay for whatever is
reasonable or appropriate to protect Lender’s interest
in the Property and rights under this Security
Instrument, including protecting and/or assessing the
value of the Property, and securing and/or repairing
the Property. Lender’s actions can include, but are not
limited to: (a) paying any sums secured by a lien which
has priority over this Security Instrument;
(b) appearing in court; and (c) paying reasonable
attorneys’ fees to protect its interest in the Property
and/or rights under this Security Instrument, including
its secured position in a bankruptcy proceeding.
Securing the Property includes, but is not limited to,
entering the Property to make repairs, change locks,
replace or board up doors and windows, drain water
from pipes, eliminate building or other code violations
or dangerous conditions, and have utilities turned on or
off. Although Lender may take action under this
Section 9, Lender does not have to do so and is not
under any duty or obligation to do so. It is agreed that
Lender incurs no liability for not taking any or all
actions authorized under this Section 9.
Any amounts disbursed by Lender under this
Section 9 shall become additional debt of Borrower
secured by this Security Instrument. These amounts
shall bear interest at the Note rate from the date of
disbursement and shall be payable, with such interest,

App. 60
upon notice from Lender to Borrower requesting
payment.
If this Security Instrument is on a leasehold,
Borrower shall comply with all the provisions of the
lease. Borrower shall not surrender the leasehold
estate and interests herein conveyed or terminate or
cancel the ground lease. Borrower shall not, without
the express written consent of Lender, alter or amend
the ground lease. If Borrower acquires fee title to the
Property, the leasehold and the fee title shall not merge
unless Lender agrees to the merger in writing.
10. Mortgage Insurance. If Lender required
Mortgage Insurance as a condition of making the Loan,
Borrower shall pay the premiums required to maintain
the Mortgage Insurance in effect. If, for any reason, the
Mortgage Insurance coverage required by Lender
ceases to be available from the mortgage insurer that
previously provided such insurance and Borrower was
required to make separately designated payments
toward the premiums for Mortgage Insurance,
Borrower shall pay the premiums required to obtain
coverage substantially equivalent to the Mortgage
Insurance previously in effect, at a cost substantially
equivalent to the cost to Borrower of the Mortgage
Insurance previously in effect, from an alternate
mortgage insurer selected by Lender. If substantially
equivalent Mortgage Insurance coverage is not
available, Borrower shall continue to pay to Lender the
amount of the separately designated payments that
were due when the insurance coverage ceased to be in
effect. Lender will accept, use and retain these
payments as a non-refundable loss reserve in lieu of

App. 61
Mortgage Insurance. Such loss reserve shall be nonrefundable, notwithstanding the fact that the Loan is
ultimately paid in full, and Lender shall not be
required to pay Borrower any interest or earnings on
such loss reserve. Lender can no longer require loss
reserve payments if Mortgage Insurance coverage (in
the amount and for the period that Lender requires)
provided by an insurer selected by Lender again
becomes available, is obtained, and Lender requires
separately designated payments toward the premiums
for Mortgage Insurance. If Lender required Mortgage
Insurance as a condition of making the Loan and
Borrower was required to make separately designated
payments toward the premiums for Mortgage
Insurance, Borrower shall pay the premiums required
to maintain Mortgage Insurance in effect, or to provide
a non-refundable loss reserve, until Lender’s
requirement for Mortgage Insurance ends in
accordance with any written agreement between
Borrower and Lender providing for such termination or
until termination is required by Applicable Law.
Nothing in this Section 10 affects Borrower’s obligation
to pay interest at the rate provided in the Note.
Mortgage Insurance reimburses Lender (or any
entity that purchases the Note) for certain losses it
may incur if Borrower does not repay the Loan as
agreed. Borrower is not a party to the Mortgage
Insurance.
Mortgage insurers evaluate their total risk on all
such insurance in force from time to time, and may
enter into agreements with other parties that share or
modify their risk, or reduce losses. These agreements

App. 62
are on terms and conditions that are satisfactory to the
mortgage insurer and the other party (or parties) to
these agreements. These agreements may require the
mortgage insurer to make payments using any source
of funds that the mortgage insurer may have available
(which may include funds obtained from Mortgage
Insurance premiums).
As a result of these agreements, Lender, any
purchaser of the Note, another insurer, any reinsurer,
any other entity, or any affiliate of any of the foregoing,
may receive (directly or indirectly) amounts that derive
from (or might be characterized as) a portion of
Borrower’s payments for Mortgage Insurance, in
exchange for sharing or modifying the mortgage
insurer’s risk, or reducing losses. If such agreement
provides that an affiliate of Lender takes a share of the
insurer’s risk in exchange for a share of the premiums
paid to the insurer, the arrangement is often termed
“captive reinsurance.” Further:
(a) Any such agreements will not affect the
amounts that Borrower has agreed to pay for
Mortgage Insurance, or any other terms of the
Loan. Such agreements will not increase the
amount Borrower will owe for Mortgage
Insurance, and they will not entitle Borrower to
any refund.
(b) Any such agreements will not affect the
rights Borrower has - if any - with respect to the
Mortgage Insurance under the Homeowners
Protection Act of 1998 or any other law. These
rights may include the right to receive certain
disclosures, to request and obtain cancellation of

App. 63
the Mortgage Insurance, to have the Mortgage
Insurance terminated automatically, and/or to
receive a refund of any Mortgage Insurance
premiums that were unearned at the time of such
cancellation or termination.
11. Assignment of Miscellaneous Proceeds;
Forfeiture. All Miscellaneous Proceeds are hereby
assigned to and shall be paid to Lender.
If the Property is damaged, such Miscellaneous
Proceeds shall be applied to restoration or repair of the
Property, if the restoration or repair is economically
feasible and Lender’s security is not lessened. During
such repair and restoration period, Lender shall have
the right to hold such Miscellaneous Proceeds until
Lender has had an opportunity to inspect such
Property to ensure the work has been completed to
Lender’s satisfaction, provided that such inspection
shall be undertaken promptly. Lender may pay for the
repairs and restoration in a single disbursement or in
a series of progress payments as the work is completed.
Unless an agreement is made in writing or Applicable
Law requires interest to be paid on such Miscellaneous
Proceeds, Lender shall not be required to pay Borrower
any interest or earnings on such Miscellaneous
Proceeds. If the restoration or repair is not
economically feasible or Lender’s security would be
lessened, the Miscellaneous Proceeds shall be applied
to the sums secured by this Security Instrument,
whether or not then due, with the excess, if any, paid
to Borrower. Such Miscellaneous Proceeds shall be
applied in the order provided for in Section 2.

App. 64
In the event of a total taking, destruction, or loss in
value of the Property, the Miscellaneous Proceeds shall
be applied to the sums secured by this Security
Instrument, whether or not then due, with the excess,
if any, paid to Borrower.
In the event of a partial taking, destruction, or loss
in value of the Property in which the fair market value
of the Property immediately before the partial taking,
destruction, or loss in value is equal to or greater than
the amount of the sums secured by this Security
Instrument immediately before the partial taking,
destruction, or loss in value, unless Borrower and
Lender otherwise agree in writing, the sums secured by
this Security Instrument shall be reduced by the
amount of the Miscellaneous Proceeds multiplied by
the following fraction: (a) the total amount of the sums
secured immediately before the partial taking,
destruction, or loss in value divided by (b) the fair
market value of the Property immediately before the
partial taking, destruction, or loss in value. Any
balance shall be paid to Borrower.
In the event of a partial taking, destruction, or loss
in value of the Property in which the fair market value
of the Property immediately before the partial taking,
destruction, or loss in value is less than the amount of
the sums secured immediately before the partial
taking, destruction, or loss in value, unless Borrower
and Lender otherwise agree in writing, the
Miscellaneous Proceeds shall be applied to the sums
secured by this Security Instrument whether or not the
sums are then due.

App. 65
If the Property is abandoned by Borrower, or if,
after notice by Lender to Borrower that the Opposing
Party (as defined in the next sentence) offers to make
an award to settle a claim for damages, Borrower fails
to respond to Lender within 30 days after the date the
notice is given, Lender is authorized to collect and
apply the Miscellaneous Proceeds either to restoration
or repair of the Property or to the sums secured by this
Security Instrument, whether or not then due.
“Opposing Party” means the third party that owes
Borrower Miscellaneous Proceeds or the party against
whom Borrower has a right of action in regard to
Miscellaneous Proceeds.
Borrower shall be in default if any action or
proceeding, whether civil or criminal, is begun that, in
Lender’s judgment, could result in forfeiture of the
Property or other material impairment of Lender’s
interest in the Property or rights under this Security
Instrument. Borrower can cure such a default and, if
acceleration has occurred, reinstate as provided in
Section 19, by causing the action or proceeding to be
dismissed with a ruling that, in Lender’s judgment,
precludes forfeiture of the Property or other material
impairment of Lender’s interest in the Property or
rights under this Security Instrument. The proceeds of
any award or claim for damages that are attributable
to the impairment of Lender’s interest in the Property
are hereby assigned and shall be paid to Lender.
All Miscellaneous Proceeds that are not applied to
restoration or repair of the Property shall be applied in
the order provided for in Section 2.

App. 66
12. Borrower Not Released; Forbearance By
Lender Not a Waiver. Extension of the time for
payment or modification of authorization of the sums
secured by this Security Instrument granted by Lender
to Borrower or any Successor in Interest of Borrower
shall not operate to release the liability of Borrower or
any Successors in Interest of Borrower. Lender shall
not be required to commence proceedings against any
Successor in Interest of Borrower or to refuse to extend
time for payment or otherwise modify amortization of
the sums secured by this Security Instrument by
reason of any demand made by the original Borrower
or any Successors in Interest of Borrower. Any
forbearance by Lender in exercising any right or
remedy including, without limitation, Lender’s
acceptance of payments from third persons, entities or
Successors in Interest of Borrower or in amounts less
than the amount then due, shall not be a waiver of or
preclude the exercise of any right or remedy.
13. Joint and Several Liability; Co-signers;
Successors and Assigns Bound. Borrower covenants
and agrees that Borrower’s obligations and liability
shall be joint and several. However, any Borrower who
co-signs this Security Instrument but does not execute
the Note (a “co-signer”): (a) is co-signing this Security
Instrument only to mortgage, grant and convey the cosigner’s interest in the Property under the terms of this
Security Instrument; (b) is not personally obligated to
pay the sums secured by this Security Instrument; and
(c) agrees that Lender and any other Borrower can
agree to extend, modify, forbear or make any
accommodations with regard to the terms of this

App. 67
Security Instrument or the Note without the co-signer’s
consent.
Subject to the provisions of Section 18, any
Successor in Interest of Borrower who assumes
Borrower’s obligations under this Security Instrument
in writing, and is approved by Lender, shall obtain all
of Borrower’s rights and benefits under this Security
Instrument. Borrower shall not be released from
Borrower’s obligations and liability under this Security
Instrument unless Lender agrees to such release in
writing. The covenants and agreements of this Security
Instrument shall bind (except as provided in Section
20) and benefit the successors and assigns of Lender.
14. Loan Charges. Lender may charge Borrower
fees for services performed in connection with
Borrower’s default, for the purpose of protecting
Lender’s interest in the Property and rights under this
Security Instrument, including, but not limited to,
attorneys’ fees, property inspection and valuation fees.
In regard to any other fees, the absence of express
authority in this Security Instrument to charge a
specific fee to Borrower shall not be construed as a
prohibition on the charging of such fee. Lender may not
charge fees that are expressly prohibited by this
Security Instrument or by Applicable Law.
If the Loan is subject to a law which sets maximum
loan charges, and that law is finally interpreted so that
the interest or other loan charges collected or to be
collected in connection with the Loan exceed the
permitted limits, then: (a) any such loan charge shall
be reduced by the amount necessary to reduce the
charge to the permitted limit; and (b) any sums already

App. 68
collected from Borrower which exceeded permitted
limits will be refunded to Borrower. Lender may choose
to make this refund by reducing the principal owed
under the Note or by making a direct payment to
Borrower. If a refund reduces principal, the reduction
will be treated as a partial prepayment without any
prepayment charge (whether or not a prepayment
charge is provided for under the Note). Borrower’s
acceptance of any such refund made by direct payment
to Borrower will constitute a waiver of any right of
action Borrower might have arising out of such
overcharge.
15. Notices. All notices given by Borrower or
Lender in connection with this Security Instrument
must be in writing. Any notice to Borrower in
connection with this Security Instrument shall be
deemed to have been given to Borrower when mailed by
first class mail or when actually delivered to
Borrower’s notice address if sent by other means.
Notice to any one Borrower shall constitute notice to all
Borrowers unless Applicable Law expressly requires
otherwise. The notice address shall be the Property
Address unless Borrower has designated a substitute
notice address by notice to Lender. Borrower shall
promptly notify Lender of Borrower’s change of
address. If Lender specifies a procedure for reporting
Borrower’s change of address, then Borrower shall only
report a change of address through that specified
procedure. There may be only one designated notice
address under this Security Instrument at any one
time. Any notice to Lender shall be given by delivering
it or by mailing it by first class mail to Lender’s
address stated herein unless Lender has designated

App. 69
another address by notice to Borrower. Any notice in
connection with this Security Instrument shall not be
deemed to have been given to Lender until actually
received by Lender. If any notice required by this
Security Instrument is also required under Applicable
Law, the Applicable Law requirement will satisfy the
corresponding requirement under this Security
Instrument.
16. Governing Law; Severability; Rules of
Construction. This Security Instrument shall be
governed by federal law and the law of the jurisdiction
in which the Property is located. All rights and
obligations contained in this Security Instrument are
subject to any requirements and limitations of
Applicable Law. Applicable Law might explicitly or
implicitly allow the parties to agree by contract or it
might be silent, but such silence shall not be construed
as a prohibition against agreement by contract. In the
event that any provision or clause of this Security
Instrument or the Note conflicts with Applicable Law,
such conflict shall not affect other provisions of this
Security Instrument or the Note which can be given
effect without the conflicting provision.
As used in this Security Instrument: (a) words of
the masculine gender shall mean and include
corresponding neuter words or words of the feminine
gender; (b) words in the singular shall mean and
include the plural and vice versa; and (c) the word
“may” gives sole discretion without any obligation to
take any action.
17. Borrower’s Copy. Borrower shall be given one
copy of the Note and of this Security Instrument.

App. 70
18. Transfer of the Property or a Beneficial
Interest in Borrower. As used in this Section 18,
“Interest in the Property” means any legal or beneficial
interest in the Property, including, but not limited to,
those beneficial interests transferred in a bond for
deed, contract for deed, installment sales contract or
escrow agreement, the intent of which is the transfer of
title by Borrower at a future date to a purchaser.
If all or any part of the Property or any Interest in
the Property is sold or transferred (or if Borrower is not
a natural person and a beneficial interest in Borrower
is sold or transferred) without Lender’s prior written
consent, Lender may require immediate payment in
full of all sums secured by this Security Instrument.
However, this option shall not be exercised by Lender
if such exercise is prohibited by Applicable Law.
If Lender exercises this option, Lender shall give
Borrower notice of acceleration. The notice shall
provide a period of not less than 30 days from the date
the notice is given in accordance with Section 15 within
which Borrower must pay all sums secured by this
Security Instrument. If Borrower fails to pay these
sums prior to the expiration of this period, Lender may
invoke any remedies permitted by this Security
instrument without further notice or demand on
Borrower.
19. Borrower’s Right to Reinstate After
Acceleration. If Borrower meets certain conditions,
Borrower shall have the right to have enforcement of
this Security Instrument discontinued at any time
prior to the earliest of: (a) five days before sale of the
Property pursuant to any power of sale contained in

App. 71
this Security Instrument; (b) such other period as
Applicable Law might specify for the termination of
Borrower’s right to reinstate; or (c) entry of a judgment
enforcing this Security Instrument. Those conditions
are that Borrower: (a) pays Lender all sums which then
would be due under this Security Instrument and the
Note as if no acceleration had occurred; (b) cures any
default of any other covenants or agreements; (c) pays
all expenses incurred in enforcing this Security
Instrument, including, but not limited to, reasonable
attorneys’ fees, property inspection and valuation fees,
and other fees incurred for the purpose of protecting
Lender’s interest in the Property and rights under this
Security Instrument; and (d) takes such action as
Lender may reasonably require to assure that Lender’s
interest in the Property and rights under this Security
Instrument, and Borrower’s obligation to pay the sums
secured by this Security Instrument, shall continue
unchanged. Lender may require that Borrower pay
such reinstatement sums and expenses in one or more
of the following forms, as selected by Lender: (a) cash;
(b) money order; (c) certified check, bank check.
treasurer’s check or cashier’s check, provided any such
check is drawn upon an institution whose deposits are
insured by a federal agency, instrumentality or entity;
or (d) Electronic Funds Transfer. Upon reinstatement
by Borrower, this Security Instrument and obligations
secured hereby shall remain fully effective as if no
acceleration had occurred. However, this right to
reinstate shall not apply in the case of acceleration
under Section 18.
20. Sale of Note; Change of Loan Servicer;
Notice of Grievance. The Note or a partial interest in

App. 72
the Note (together with this Security Instrument) can
be sold one or more times without prior notice to
Borrower. A sale might result in a change in the entity
(known as the “Loan Servicer”) that collects Periodic
Payments due under the Note and this Security
Instrument and performs other mortgage loan
servicing obligations under the Note, this Security
Instrument, and Applicable Law. There also might be
one or more changes of the Loan Servicer unrelated to
a sale of the Note. If there is a change of the Loan
Servicer, Borrower will be given written notice of the
change which will state the name and address of the
new Loan Servicer, the address to which payments
should be made and any other information RESPA
requires in connection with a notice of transfer of
servicing. If the Note is sold and thereafter the Loan is
serviced by a Loan Servicer other than the purchaser
of the Note, the mortgage loan servicing obligations to
Borrower will remain with the Loan Servicer or be
transferred to a successor Loan Servicer and are not
assumed by the Note purchaser unless otherwise
provided by the Note purchaser.
Neither Borrower nor Lender may commence, join,
or be joined to any judicial action (as either an
individual litigant or the member of a class) that arises
from the other party’s actions pursuant to this Security
Instrument or that alleges that the other party has
breached any provision of, or any duty owed by reason
of, this Security Instrument, until such Borrower or
Lender has notified the other party (with such notice
given in compliance with the requirements of Section
15) of such alleged breach and afforded the other party
hereto a reasonable period after the giving of such

App. 73
notice to take corrective action. If Applicable Law
provides a time period which must elapse before
certain action can be taken, that time period will be
deemed to be reasonable for purposes of this
paragraph. The notice of acceleration and opportunity
to cure given to Borrower pursuant to Section 22 and
the notice of acceleration given to Borrower pursuant
to Section 18 shall be deemed to satisfy the notice and
opportunity to take corrective action provisions of this
Section 20.
21. Hazardous Substances. As used in this
Section 21: (a) “Hazardous Substances” are those
substances defined as toxic or hazardous substances,
pollutants, or wastes by Environmental Law and the
following substances: gasoline, kerosene, other
flammable or toxic petroleum products, toxic pesticides
and herbicides, volatile solvents, materials containing
asbestos or formaldehyde, and radioactive materials;
(b) “Environmental Law” means federal laws and laws
of the jurisdiction where the Property is located that
relate to health, safety or environmental protection;
(c) “Environmental Cleanup” includes any response
action, remedial action, or removal action, as defined in
Environmental Law; and (d) an “Environmental
Condition” means a condition that can cause,
contribute to, or otherwise trigger an Environmental
Cleanup.
Borrower shall not cause or permit the presence,
use, disposal, storage, or release of any Hazardous
Substances, or threaten to release any Hazardous
Substances, on or in the Property. Borrower shall not
do, nor allow anyone else to do, anything affecting the

App. 74
Property (a) that is in violation of any Environmental
Law, (b) which creates an Environmental Condition, or
(c) which, due to the presence, use, or release of a
Hazardous Substance, creates a condition that
adversely affects the value of the Property. The
preceding two sentences shall not apply to the
presence, use, or storage on the Property of small
quantities of Hazardous Substances that are generally
recognized to be appropriate to normal residential uses
and to maintenance of the Property (including, but not
limited to, hazardous substances in consumer
products).
Borrower shall promptly give Lender written notice
of (a) any investigation, claim, demand, lawsuit or
other action by any governmental or regulatory agency
or private party involving the Property and any
Hazardous Substance or Environmental Law of which
Borrower has actual knowledge, (b) any Environmental
Condition, including but not limited to, any spilling,
leaking, discharge, release or threat of release of any
Hazardous Substance, and (c) any condition caused by
the presence, use or release of a Hazardous Substance
which adversely affects the value of the Property. If
Borrower learns, or is notified by any governmental or
regulatory authority, or any private party, that any
removal or other remediation of any Hazardous
Substance affecting the Property is necessary,
Borrower shall promptly take all necessary remedial
actions in accordance with Environmental Law.
Nothing herein shall create any obligation on Lender
for an Environmental Cleanup.

App. 75
NON-UNIFORM COVENANTS. Borrower and
Lender further covenant and agree as follows:
22. Acceleration; Remedies. Lender shall give
notice to Borrower prior to acceleration
following Borrower’s breach of any covenant or
agreement in this Security Instrument (but not
prior to acceleration under Section 18 unless
Applicable Law provides otherwise). The notice
shall specify: (a) the default; (b) the action
required to cure the default; (c) a date, not less
than 30 days from the date the notice is given to
Borrower, by which the default must be cured;
and (d) that failure to cure the default on or
before the date specified in the notice may result
in acceleration of the sums secured by this
Security Instrument and sale of the Property.
The notice shall further inform Borrower of the
right to reinstate after acceleration and the right
to bring a court action to assert the nonexistence of a default or any other defense of
Borrower to acceleration and sale. If the default
is not cured on or before the date specified in the
notice, Lender at its option may require
immediate payment in full of all sums secured by
this Security Instrument without further demand
and may invoke the power of sale and any other
remedies permitted by Applicable Law. Lender
shall be entitled to collect all expenses incurred
in pursuing the remedies provided in this Section
22, including, but not limited to, reasonable
attorneys’ fees and costs of title evidence.

App. 76
If Lender invokes the power of sale, Lender
shall execute or cause Trustee to execute a
written notice of the occurrence of an event or
default and of Lender’s election to cause the
Property to be sold. Trustee shall cause this
notice to be recorded in each county in which
any part of the Property is located. Lender or
Trustee shall mail copies of the notice as
prescribed by Applicable Law to Borrower and to
the other persons prescribed by Applicable Law.
Trustee shall give public notice of sale to the
persons and in the manner prescribed by
Applicable Law. After the time required by
Applicable Law, Trustee, without demand on
Borrower, shall sell the Property at public
auction to the highest bidder at the time and
place and under the terms designated in the
notice of sale in one or more parcels and in any
order Trustee determines. Trustee may postpone
sale of all or any parcel of the Property by public
announcement at the time and place of any
previously scheduled sale. Lender or its designee
may purchase the Property at any sale.
Trustee shall deliver to the purchaser
Trustee’s deed conveying the Property without
any covenant or warranty, expressed or implied.
The recitals in the Trustee’s deed shall be prima
facie evidence of the truth of the statements
made therein. Trustee shall apply the proceeds of
the sale in the following order: (a) to all expenses
of the sale, including, but not limited to,
reasonable Trustee’s and attorneys’ fees; (b) to all
sums secured by this Security Instrument; and

App. 77
(c) any excess to the person or persons legally
entitled to it.
23. Reconveyance. Upon payment of all sums
secured by this Security Instrument, Lender shall
request Trustee to reconvey the Property and shall
surrender this Security Instrument and all notes
evidencing debt secured by this Security Instrument to
Trustee. Trustee shall reconvey the Property without
warranty to the person or persons legally entitled to it.
Lender may charge such person or persons a
reasonable fee for reconveying the Property, but only if
the fee is paid to a third party (such as the Trustee) for
services rendered and the charging of the fee is
permitted under Applicable Law. If the fee charged
does not exceed the fee set by Applicable Law, the fee
is conclusively presumed to be reasonable.
24. Substitute Trustee. Lender, at its option, may
from time to time appoint a successor trustee to any
Trustee appointed hereunder by an instrument
executed and acknowledged by Lender and recorded in
the office of the Recorder of the county in which the
Property is located. The instrument shall contain the
name of the original Lender, Trustee and Borrower, the
book and page where this Security Instrument is
recorded and the name and address of the successor
trustee. Without conveyance of the Property, the
successor trustee shall succeed to all the title, powers
and duties conferred upon the Trustee herein and by
Applicable Law. This procedure for substitution of
trustee shall govern to the exclusion of all other
provisions for substitution.

App. 78
25. Statement of Obligation Fee. Lender may
collect a fee not to exceed the maximum amount
permitted by Applicable Law for furnishing the
statement of obligation as provided by Section 2943 of
the Civil Code of California.
BY SIGNING BELOW, Borrower accepts and
agrees to the terms and covenants contained in this
Security Instrument and in any Rider executed by
Borrower and recorded with it.
The undersigned Borrower requests that a copy of
any Notice of Default and any Notice of Sale under this
Security Instrument be mailed to Borrower at the
address set forth above.
/s/Jose Manuel Lorenzana
(Seal)
JOSE MANUEL LORENZANA -Borrower
/s/Nohemi Lorenzana
NOHEMI LORENZANA

(Seal)
-Borrower

/s/

(Seal)
-Borrower

/s/

(Seal)
-Borrower

/s/

(Seal)
-Borrower

App. 79
/s/

(Seal)
-Borrower

Witness:

Witness:

______________________

______________________

App. 80
[Space Below This Line For Acknowledgment]
State of CALIFORNIA
County of SAN DIEGO

)
) ss.
)

On 3-25-2014 before me, C. Trujillo / Notary Public
personally appeared JOSE MANUEL LORENZANA
AND NOHEMI LORENZANA who proved to me on the
basis of satisfactory evidence to be the person(s) whose
name(s) are subscribed to the within instrument and
acknowledged to me that they executed the same in
their authorized capacity(ies), and that by their
signature(s) on the instrument the person(s), or the
entity upon behalf of which the person(s) acted,
executed the instrument.
I certify under PENALTY OF PERJURY under the
laws of the State of California that the foregoing
paragraph is true and correct.
WITNESS my hand and official seal.
C. Trujillo
NOTARY SIGNATURE
C. Trujillo
(Typed Name of Notary)
[SEAL]

C. TRUJILLO
Commission # 2044312
Notary Public - California
San Diego County
My Comm. Expires Oct 3, 3017

NOTARY SEAL

App. 81
Loan Originator: , NMLSR ID
Loan Originator Organization: , NMLSR ID
CALIFORNIA--Single Family--Fannie Mae/Freddie
Mac UNIFORM INSTRUMENT
Form 3005 1/01
Page 14 of 14
DocMagic EForms
www.docmagic.com
Ca3005.doc.xml

App. 82
Loan Number: 330990-122
Date: MARCH 24, 2014
Property Address: 3363 WITTMAN WAY
SAN YSIDRO, CALIFORNIA
92173

EXHIBIT “A”
LEGAL DESCRIPTION

A.P.N. # : 665-063-22-00
DocMagic EForms
www.docmagic.com

App. 83
EXHIBIT “A”
LOT 169 OF CORAL GATE UNIT NO. 1, IN THE
CITY OF SAN DIEGO, COUNTY OF SAN DIEGO,
STATE OF CALIFORNIA, ACCORDING TO MAP
THEREOF NO. 13372, FILED IN THE OFFICE OF
THE COUNTY RECORDER OF SAN DIEGO
COUNTY, NOVEMBER 18, 1996.
***END OF LEGAL DESCRIPTION***

App. 84
Loan Number: 330990-122
1-4 FAMILY RIDER
(Assignment of Rents)
THIS 1-4 FAMILY RIDER is made this 24th day of
MARCH, 2014, and is incorporated into and shall be
deemed to amend and supplement the Mortgage, Deed
of Trust, or Security Deed (the “Security Instrument”)
of the same date given by the undersigned (the
“Borrower”) to secure Borrower’s Note to SUNIL DEO
(the “Lender”) of the same date and covering the
Property described in the Security Instrument and
located at:
3363 WITTMAN WAY, SAN YSIDRO, CALIFORNIA
92173
[Property Address]
1-4 FAMILY COVENANTS. In addition to the
covenants and agreements made in the Security
Instrument, Borrower and Lender further covenant
and agree as follows:
A. ADDITIONAL PROPERTY SUBJECT
TO THE SECURITY INSTRUMENT. In
addition to the Property described in Security
Instrument, the following items now or hereafter
attached to the Property to the extent they are
fixtures are added to the Property description,
and shall also constitute the Property covered by
the Security Instrument: building materials,
appliances and goods of every nature whatsoever
now or hereafter located in, on, or used, or
intended to be used in connection with the

App. 85
Property, including, but not limited to, those for
the purposes of supplying or distributing
heating, cooling, electricity, gas, water, air and
light, fire prevention and extinguishing
apparatus, security and access control
apparatus, plumbing, bath tubs, water heaters,
water closets, sinks, ranges, stoves,
refrigerators, dishwashers, disposals, washers.
dryers, awnings, storm windows, storm doors,
screens, blinds, shades, curtains and curtain
rods, attached mirrors, cabinets, paneling and
attached floor coverings, all of which, including
replacements and additions thereto, shall be
deemed to be and remain a part of the Property
covered by the Security Instrument. All of the
foregoing together with the Property described
in the Security Instrument (or the leasehold
estate if the Security Instrument is on a
leasehold) are referred to in this 1-4 Family
Rider and the Security Instrument as the
“Property.”
B. USE OF PROPERTY; COMPLIANCE
WITH LAW. Borrower shall not seek, agree to
or make a change in the use of the Property or
its zoning classification, unless Lender has
agreed in writing to the change. Borrower shall
comply with all laws, ordinances, regulations
and requirements of any governmental body
applicable to the Property.
C. SUBORDINATE LIENS. Except as
permitted by federal law, Borrower shall not
allow any lien inferior to the Security

App. 86
Instrument to be perfected against the Property
without Lender’s prior written permission.
D. RENT LOSS INSURANCE. Borrower
shall maintain insurance against rent loss in
addition to the other hazards for which
insurance is required by Section 5.
E.
“BORROWER’S
RIGHT
TO
REINSTATE” DELETED. Section 19 is
deleted.
F. BORROWER’S OCCUPANCY. Unless
Lender and Borrower otherwise agree in writing,
Section 6 concerning Borrower’s occupancy of
the Property is deleted.
G. ASSIGNMENT OF LEASES. Upon
Lender’s request after default, Borrower shall
assign to Lender all leases of the Property and
all security deposits made in connection with
leases of the Property. Upon the assignment,
Lender shall have the right to modify, extend or
terminate the existing leases and to execute new
leases, in Lender’s sole discretion. As used in
this paragraph G, the word “lease” shall mean
“sublease” if the Security Instrument is on a
leasehold.
H.
ASSIGNMENT
OF
RENTS;
APPOINTMENT OF RECEIVER; LENDER
IN POSSESSION. Borrower absolutely and
unconditionally assigns and transfers to Lender
all the rents and revenues (“Rents”) of the
Property, regardless of to whom the Rents of the
Property are payable. Borrower authorizes

App. 87
Lender or Lender’s agents to collect the Rents,
and agrees that each tenant of the Property
shall pay the Rents to Lender or Lender’s
agents. However, Borrower shall receive the
Rents until (i) Lender has given Borrower notice
of default pursuant to Section 22 of the Security
Instrument and (ii) Lender has given notice to
the tenant(s) that the Rents are to be paid to
Lender or Lender’s agent. This assignment of
Rents constitutes an absolute assignment and
not an assignment for additional security only.
If Lender gives notice of default to Borrower:
(i) all Rents received by Borrower shall be held
by Borrower as trustee for the benefit of Lender
only, to be applied to the sums secured by the
Security Instrument; (ii) Lender shall be entitled
to collect and receive all of the Rents of the
Property; (iii) Borrower agrees that each tenant
of the Property shall pay all Rents due and
unpaid to Lender or Lender’s agents upon
Lender’s written demand to the tenant;
(iv) unless applicable law provides otherwise, all
Rents collected by Lender or Lender’s agents
shall be applied first to the costs of taking
control of and managing the Property and
collecting the Rents, including, but not limited
to, attorney’s fees, receiver’s fees, premiums on
receiver’s bonds, repair and maintenance costs,
insurance premiums, taxes, assessments and
other charges on the Property, and then to the
sums secured by the Security Instrument;
(v) Lender, Lender’s agents or any judicially
appointed receiver shall be liable to account for

App. 88
only those Rents actually received; and
(vi) Lender shall be entitled to have a receiver
appointed to take possession of and manage the
Property and collect the Rents and profits
derived from the Property without any showing
as to the inadequacy of the Property as security.
If the Rents of the Property are not sufficient
to cover the costs of taking control of and
managing the Property and of collecting the
Rents any funds expended by Lender for such
purposes shall become indebtedness of Borrower
to Lender secured by the Security Instrument
pursuant to Section 9.
Borrower represents and warrants that
Borrower has not executed any prior assignment
of the Rents and has not performed, and will not
perform, any act that would prevent Lender
from exercising its rights under this paragraph.
Lender, or Lender’s agents or a judicially
appointed receiver, shall not be required to enter
upon, take control of or maintain the Property
before or after giving notice of default to
Borrower. However, Lender, or Lender’s agents
or a judicially appointed receiver, may do so at
any time when a default occurs. Any application
of Rents shall not cure or waive any default or
invalidate any other right or remedy of Lender.
This assignment of Rents of the Property shall
terminate when all the sums secured by the
Security Instrument are paid in full.

App. 89
I. CROSS-DEFAULT PROVISION.
Borrower’s default or breach under any note or
agreement in which Lender has an interest shall
be a breach under the Security Instrument and
Lender may invoke any of the remedies
permitted by the Security Instrument.
BY SIGNING BELOW, Borrower accepts and
agrees to the terms and covenants contained in this 1-4
Family Rider.
/s/Jose Manuel Lorenzana
(Seal)
JOSE MANUEL LORENZANA -Borrower
/s/Nohemi Lorenzana
NOHEMI LORENZANA

(Seal)
-Borrower

/s/

(Seal)
-Borrower

/s/

(Seal)
-Borrower

/s/

(Seal)
-Borrower

/s/

(Seal)
-Borrower

MULTISTATE 1-4 FAMILY RIDER
Fannie Mae/Freddie Mac UNIFORM INSTRUMENT

App. 90
Form 3170 1/01 Page 3 of 3
DocMagic EForms
www.docmagic.com

App. 91
[Space Above This line For Recording Data]
Loan Number: 330990-122
BALLOON RIDER
THIS BALLOON RIDER is made this 24th day of
MARCH 2014, and is incorporated into and shall be
deemed to amend and supplement the Mortgage, Deed
of Trust or Security Deed (the “Security Instrument”)
of the same date given by the undersigned (“Borrower”)
to secure Borrower’s Note (the “Note”) to SUNIL DEO
(the “Lender”) of the same date and covering the
property described in the Security Instrument and
located at:
3363 WITTMAN WAY, SAN YSIDRO,
CALIFORNIA 92173
[Property Address]
The interest rate stated on the Note is called the
“Note Rate.” The date of the Note is called the “Note
Date.” I understand the Lender may transfer the Note,
Security Instrument and this Rider. The Lender or
anyone who takes the Note, the Security Instrument
and this Rider by transfer and who is entitled to
receive payments under the Note is called the “Note
Holder.”
ADDITIONAL COVENANTS. In addition to the
covenants and agreements in the Security Instrument,
Borrower and Lender further covenant and agree as
follows (despite anything to the contrary contained in
the Security Instrument or the Note):

App. 92
THIS LOAN IS PAYABLE IN FULL AT
MATURITY. YOU MUST REPAY THE ENTIRE
PRINCIPAL BALANCE OF THE LOAN AND
UNPAID INTEREST THEN DUE. THE LENDER
IS UNDER NO OBLIGATION TO REFINANCE
THE LOAN AT THAT TIME. YOU WILL,
THEREFORE, BE REQUIRED TO MAKE
PAYMENT OUT OF OTHER ASSETS THAT YOU
MAY OWN, OR YOU WILL HAVE TO FIND A
LENDER, WHICH MAY BE THE LENDER YOU
HAVE THIS LOAN WITH, WILLING TO LEND
YOU THE MONEY. IF YOU REFINANCE THIS
LOAN AT MATURITY, YOU MAY HAVE TO PAY
SOME OR ALL OF THE CLOSING COSTS
NORMALLY ASSOCIATED WITH A NEW LOAN
EVEN IF YOU OBTAIN REFINANCING FROM
THE SAME LENDER.
BY SIGNING BELOW, Borrower accepts and agrees to
the terms and covenants contained in this Balloon
Rider.
/s/Jose Manuel Lorenzana
Borrower JOSE MANUEL
LORENZANA
/s/Nohemi Lorenzana
Borrower NOHEMI
LORENZANA

Borrower

Date

3-25-14
Date

Date

App. 93
Borrower

Date

Borrower

Date

Borrower

Date

MULTISTATE BALLOON RIDER
04/26/04
Page 2 of 2
DocMagic EForms
www.docmagic.com
Usb.rdr.xml

